<html>
<title> - ETHNIC MINORITIES IN CHINA: TIBETANS AND UIGHURS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                      ETHNIC MINORITIES IN CHINA: 
                          TIBETANS AND UIGHURS
=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2002
                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov






                        U.S. GOVERNMENT PRINTING OFFICE
80-922                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

MAX BAUCUS, Montana, Chairman        DOUG BEREUTER, Nebraska, Co-
CARL LEVIN, Michigan                 Chairman
DIANNE FEINSTEIN, California         JIM LEACH, Iowa
BYRON DORGAN, North Dakota           DAVID DREIER, California
EVAN BAYH, Indiana                   FRANK WOLF, Virginia
CHUCK HAGEL, Nebraska                JOE PITTS, Pennsylvania
BOB SMITH, New Hampshire             SANDER LEVIN, Michigan
SAM BROWNBACK, Kansas                MARCY KAPTUR, Ohio
TIM HUTCHINSON, Arkansas             SHERROD BROWN, Ohio
                                     JIM DAVIS, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                D. CAMERON FINDLAY, Department of Labor
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State

                        Ira Wolf, Staff Director

                   John Foarde, Deputy Staff Director

                                  (ii)












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Wolf, Ira, Staff Director, Congressional-Executive Commission on 
  China..........................................................     1
Tsering, Bhuchung K., director, International Campaign for Tibet.     2
Sperling, Elliot, associate professor of Tibetan Studies, Indiana 
  University.....................................................     4
Holcombe, Arthur N., president, Tibet Poverty Alleviation Fund...     8
Kamberi, Dolkun, director of Uighur Language Service for Radio 
  Free Asia......................................................    20
Rudelson, Justin, executive director, University of Maryland 
  Institute for Global Chinese Affairs...........................    24

                                APPENDIX
                          Prepared Statements

Tsering, Bhuchung K..............................................    36
Sperling, Elliot.................................................    38
Holcombe, Arthur N...............................................    41
Kamberi, Dolkun..................................................    46
Rudelson, Justin.................................................    49

















                      ETHNIC MINORITIES IN CHINA: 
                          TIBETANS AND UIGHURS

                              ----------                              


                         MONDAY, JUNE 10, 2002

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:32 
p.m., in room SD-215, Dirksen Senate Office Building, Ira Wolf 
(staff director of the Commission), presiding.
    Also present: John Foarde, deputy staff director; Steve 
Marshall and Anne Tsai, Commission staff; Jennifer Goedke, 
Office of Representative Kaptur; Matt Tuchow, Office of 
Representative Levin; Arlan Fuller, Office of Representative 
Brown; Karin Finkler, Office of Representative Pitts; Dave 
Dettoni, Office of Representative Wolf; and Holly Vineyard, 
Department of Commerce.

STATEMENT OF IRA WOLF, STAFF DIRECTOR, CONGRESSIONAL-EXECUTIVE 
                      COMMISSION ON CHINA

    Mr. Wolf. I would like to welcome everyone to the sixth 
staff-led roundtable of the Congressional-Executive Commission 
on China. We are holding these roundtables per the instructions 
of the Commission chairman, Senator Baucus, and the Commission 
do-chairman, Congressman Bereuter, in order to delve more 
deeply into specific issues than is normally possible at a full 
Commission hearing.
    Two issues of great concern to many Members of Congress, to 
the Administration, and to the American people are Tibet, and 
the treatment of Uighurs in Xinjiang. We have two panels today. 
The first will deal with Tibet, the second will deal with 
Uighurs.
    We are going to follow the usual process for these 
roundtables, which means each witness will have 10 minutes for 
an oral presentation. Then we will have questions from the 
staff members.
    We have a court reporter transcribing this roundtable. 
Within the next couple of days, the formal written statements 
will be posted on our Website at www.cecc.gov, and then, in 
about 5 weeks, the full transcript will be posted.
    When we complete the Tibet panel we will move to panel two. 
For this panel, in addition to myself and John Foarde, who is 
the deputy staff director, as well as the staff members of 
individual commissioners, Steve Marshall, from the Commission 
staff will 
participate.
    The three panelists today are Bhuchung Tsering, who is 
director of the International Campaign for Tibet, Elliot 
Sperling, chair of Central Eurasian Studies at Indiana 
University; and Arthur Holcombe, who is president of the Tibet 
Poverty Alleviation Fund. Mr. Tsering, let us start with you.

STATEMENT OF BHUCHUNG TSERING, DIRECTOR, INTERNATIONAL CAMPAIGN 
                           FOR TIBET

    Mr. Tsering. Thank you, Mr. Chairman, for this opportunity 
to testify before you all here. We believe this Commission and 
its staff members play a very important role in trying to 
define how the United States will be dealing with China.
    I think today we are at a crucial State on the Tibetan 
issue, as far as the United States-China relationship is 
concerned. That is because in recent months, the Chinese 
authorities have taken some steps which on the face of it shows 
that the Chinese are sensitive to American concerns about human 
rights in Tibet and the political situation, in general.
    However, if you base your consideration solely on those 
developments, then we might miss the broader political issue 
which still remains to be resolved. Despite the fact that there 
have been release of political prisoners, the Chinese 
authorities have adapted a slightly different policy in that in 
addition to the previous policy of suppressing Tibetans in all 
their walks of life, today they have come to control the 
Tibetan people's way of life. And that is done very subtly 
through incorporation of certain aspects of Tibetan life, 
including academic and economic fields. So I want to touch 
briefly on these topics.
    One thing that we can say for certain is that because of 
international pressure, because of the pressure that the United 
States has been exerting, Chinese authorities have had to take 
even those minimum steps that they have taken. But the Chinese 
authorities are also using new tactics. For example, the 
incentives of access to economic opportunities for government 
organizations and individuals, who then would have to become 
sympathetic to their perspective on Tibet. They also are 
welcoming, in fact, attracting more and more western experts to 
Tibet, to China, to various conferences being organized by the 
Chinese Government, and to somehow legitimize the Chinese rule 
over the Tibetan people, not just in the political aspects, but 
in the cultural, literary, and all other aspects of the issue.
    I have to say that there are some individuals and 
organizations who take opportunity of this Chinese opening, to 
interact with the Tibetan people, in fields which are of direct 
benefit to the Tibetan people and that, we really encourage.
    To go back to the release of some prisoners. You will 
recollect that in January the Chinese authorities released 
Ngawang Choephel, a Fulbright Scholar and ethnomusicologist, on 
medical parole. His case was taken up mostly by the U.S. 
Government, as well as by Members of Congress, particularly 
from Vermont. Then we had Chadrel Rinpoche being released some 
time in February, although we do not know what his present 
situation is. Then, Tanag Jigme Zangpo, whose case is also 
well-known to people who watch Tibet, was released in March.
    At the same time that the Chinese Government was releasing 
these political prisoners, they were taking steps, most 
noticeably in Eastern Tibet--which is presently in what we 
would call Sichuan--and Qinghai provinces. They were cracking 
down on Tibetan leaders who were popular among the people for 
the work that they were doing with the Tibetans directly; Lamas 
like Tenzin Deleg Rinpoche, Gyaye Phuntsog, in present-day 
Qinghai, Gen Sonam Phuntsog, from Kardze in Sichuan, and, of 
course, Khenpo Jigme Phuntsog, from Larung Gar Buddhist 
encampment. And just recently we heard about Jigme Tenzin 
Rinpoche from Lhasa, who had been detained on different 
charges, but we feel, because he was popular with the people 
for starting an orphanage there.
    So all these show that the Chinese Government is taking 
steps to assuage the international concerns by releasing 
popular political prisoners but still slamming down on the most 
popular leaders still inside Tibet. The Chinese authorities are 
also using developmental opportunities, as I said earlier, to 
fulfill their political ambition. Most noticeable is the 
railway project that they are undertaking. We believe in the 
long term, the railway project will be hard on the Tibetan 
people, despite the fact that it has short-term economic 
benefits. One Western journalist who visited the construction 
area had this to say, ``The trains would allow quick deployment 
of troops to put down Tibetan protests like those in the late 
1980s against Chinese rule and to guard the frontier with 
India, which fought a border war with China in 1962.'' He also 
goes on to say that, ``It would be very easy to bring lots of 
non-Tibetans to the Tibetan areas, thus affecting the Tibetan 
identity there.''
    China has also revised its regional autonomy law to say 
that all developmental projects--which are supposed to be in 
the autonomous region--would be prioritized on the basis of the 
interests of Beijing.
    This brings us to the question: What is the International 
Campaign for Tibet's position on developmental projects in 
Tibet? We are not opposed to developmental projects in Tibet--
we believe Tibetans need to be empowered--but at the same time 
we are 
opposed to those projects which bring in more non-Tibetans to 
the Tibetan areas. We are opposed to those projects which take 
over Tibetan resources without benefiting the Tibetan people. 
We are 
opposed to those projects which fulfill the political ends of 
the Chinese leadership.
    Having said this, what is our recommendation to the 
Commission and to everyone here? I have seven recommendations 
that I would like to mention. The first is that the Commission 
needs to realize that human rights aspect is just one symptom 
of the Tibetan problem, which is a broader political problem. 
Unless we tackle that broader political problem, there cannot 
be a lasting solution. And that broader political problem needs 
to be tackled through continued raising of dialog for resolving 
the issue between the Dalai Lama and the Chinese leadership.
    Second, the Commission should urge the Congress to pass the 
Tibet Policy Act, which is a comprehensive legislation before 
the Congress. Third, the Commission should ask the 
Administration to have a coordinated approach to the Tibet 
issue. Maybe there is some sort of coordination at the moment, 
but we think it can be improved so that at all fronts the 
Chinese Government realizes, whether it is economic, commerce, 
or political, it cannot go on without resolving the political 
issue of Tibet. Then the Commission also should urge the 
Administration to adopt a multilateral approach, not just the 
United States, but the international fora, including the United 
Nations.
    The Commission should also ask the Administration to draw 
up guidelines on the developmental projects in Tibet. The 
Congress has already done that in the Tibet Policy Act, where 
it has incorporated some of those basic principles which are of 
concern to the Tibetan people. The Tibetan Government in exile 
has come out with guidelines on development projects in Tibet, 
where they encourage development in the rural sector, 
particularly in the fields of health and education.
    We commend the Commission for taking a staff delegation to 
Tibet and China recently. We believe that needs to be 
complimented by sending a delegation to the Tibetan community 
in exile so that the Commission can understand how the 
democratic administration in exile functions; what is the 
thinking of the leadership, how the Tibetan refugees survive. 
We believe this information will be useful to the Commission as 
you continue your dialog with the Chinese leadership.
    Finally, we would like to endorse the recommendations of 
the U.S. Commission on International Religious Freedom, which 
was contained in their third annual report released in May of 
this year. Their recommendations, as you recall, consisted of 
asking the Congress to extend an invitation to the Dalai Lama 
to hold a joint meeting, and that the United States should have 
a presence in the Tibetan capital, Lhasa, and that the United 
States should ask the Chinese Government to grant access to 
religious persons in prison in Tibet. We believe with such a 
comprehensive approach there is hope for a lasting solution to 
the Tibetan issue. Thank you so much.
    [The prepared statement of Mr. Tsering appears in the 
appendix.]
    Mr. Wolf. Thank you very much, Bhuchung. Elliot Sperling.

 STATEMENT OF ELLIOT SPERLING, ASSOCIATE PROFESSOR OF TIBETAN 
                  STUDIES, INDIANA UNIVERSITY

    Mr. Sperling. Thank you. I am going to diverge from the 
things that I have written as well, so this will be somewhat 
extemporaneous, in part.
    I am grateful to the Congressional-Executive Commission on 
China for giving me the opportunity to speak to you. I am the 
chair of the Department of Central Eurasian Studies at Indiana 
University, and have for a long time been engaged in the study 
of Tibetan history and Sino-Tibetan relations. I served as a 
member of the Secretary of State's Advisory Committee on 
Religious Freedom Abroad before it became the Commission on 
Religious Freedom.
    I am going to talk about the Tibet issue in general, both 
historical and contemporary. The historical perspectives that 
underlie Chinese policies in Tibet are fairly clear. It is the 
position of the People's Republic of China [PRC] that Tibet 
became an integral part of China in the 13th century; that 
sovereignty over Tibet was claimed by all subsequent dynastic 
rulers, and that inasmuch as China has consistently been a 
multinational state, the fact that two of the three dynasties 
involved in this rule were Mongols and Manchus has no bearing 
on the question of Chinese sovereignty. This is the position of 
the People's Republic of China.
    With the collapse, in 1911, of the last imperial dynasty, 
the Qing, these claims were taken up by the Republic of China--
or Nationalist China as it is sometimes called--and in 1949 by 
the People's Republic of China, which was able to implement 
them fully. In May 1951 after military clashes left Tibet with 
no real defense, the Chinese Government was able to conclude an 
``agreement on measures for the peaceful liberation of Tibet'' 
with the government of the Dalai Lama, which constituted an 
official acquiescence to Tibet's incorporation into the 
People's Republic of China.
    This account, the view from the People's Republic of China, 
is in some ways emotional and nationalistic in its perception 
of Tibet as an integral part of China for centuries. It is used 
to introduce almost all Chinese polemics and arguments about 
Tibet and its history and it underpins China's assertions about 
its place in Tibet. Sometimes there is talk about the benefits 
China has brought to Tibet, in Chinese materials, and talk 
about other issues, too. But in making the case as to why Tibet 
is a part of the People's Republic of China, the argument is 
always historical. It is held to derive from the workings of 
history.
    And here we come to an interesting facet of this whole 
issue, something that came up at a conference 2 months ago at 
Harvard University. Several of us were addressing the Tibet 
issue, and Tibet in the cold war, and it was remarkable to see 
the extent to which Marxist-Leninist theory plays into issues 
such as Tibet. One tends to think now of China as having gone 
beyond Marxist-Leninism, not that it is not ruled by an 
authoritarian regime; but nevertheless the Marxist-Leninist 
theory has been jettisoned.
    There are certain aspects of Chinese policy, such as the 
Tibet issue, which really cannot be explained otherwise. If you 
turn to questions such as self-determination or whatever, you 
still sense the dominance of Marxist-Leninist ideas. That is to 
say, the historical narrative which China puts forward, which I 
just spoke about, is a Marxist-Leninist view. It represents the 
inevitable workings of history. There is no other theoretical 
justification for it. So, therefore, we have something which 
stays where it is by dint of inertia; this justification, this 
Marxist-Leninist justification about the workings of history, 
holds that this is inevitable, that the Tibetan and ``Han''--
this is the term which is used for the people who are otherwise 
called Chinese--that the Tibetan and ``Han'' people have merged 
together by the workings of history. This is the emotional 
underlay which we have as a Chinese justification of Tibetan 
policy. Thus--and I do not want to be too obtuse about this--
when people talk about bridging the gap between the positions 
of the Tibetan exiles and the Chinese Government, they often 
forget that in point of fact, China's justification actually 
have an important link to their theoretical views in this. 
Therefore, when the Tibetan exiles and the Dalai Lama's 
government have broached proposals, such as taking all of the 
disparate Tibetan areas within the People's Republic of China 
and making a larger Tibetan region that would be autonomous, 
China has simply rejected this, because as far as China is 
concerned, history has already decided the Tibetan issue. That 
is to say, the exile government often says there is a 
difference in nationality. You are Chinese, we are Tibetan; 
therefore, we should have some sort of autonomy. To which China 
responds, you already have nationality autonomy. But again, 
Tibetan exiles ignore China's Marxist-Leninist notion that 
national differences are on the surface and thus that the 
Tibetan question has been solved by the socialist integration 
of Tibet into China. For China it is the social and economic 
differences which require certain allowances for autonomy: 
witness Hong Kong. You do not have any national difference 
there, the differences are social and economic. Even though we 
often forget about the Marxist-Leninist background here--and I 
do not want to exaggerate; certainly in so many areas of life 
in China Marxist-Leninism has been jettisoned--in some areas, 
as if by inertia, you do find this theoretical basis. When 
people argue about the Tibet issue, as often as not they forget 
that there is this vast theoretical difference in positions, 
and therefore when China rejects what the exiles say, it does 
so with its own logic, which is often misperceived.
    For Tibetans opposed to Chinese rule, the Tibetan issue 
also remains a very emotional issue. And it is, at heart, a 
nationalist issue as well. And this is something which the 
attempt to bridge positions often elides. The fact is, Tibetans 
who are dissidents, Tibetans who protest against Chinese rule 
inside Tibet and outside Tibet, do so on the basis of 
nationalist sentiment. They see their identity as Tibetans as 
something which is quite different from an identity as Chinese. 
It is a nationalist issue and they are calling for 
independence.
    Proposals to bridge the gap put forth by the United States 
Government, for instance, calling for more autonomy and 
cultural freedom in Tibet, are all very good and they are all 
very well intentioned, but we have to bear in mind that these 
are not the issues being addressed by Tibetans who are 
agitating inside Tibet. Almost all of the material that you 
pick up that is put out by Tibetan dissidents, uses the term 
independence. They are struggling for independence there. It is 
quite interesting that you have as the rallying cry from 
certain sectors, such as the exile government authorities, that 
we have to preserve Tibetan culture. And this has been picked 
up in the United States, in House and Senate resolutions, and 
also by the Executive Branch. What we must do, they say, is 
preserve Tibetan culture, which, of course, is a somewhat 
difficult issue, because calls for preserving a culture forget 
that what we are dealing with here is something dynamic. 
Culture is dynamic, it changes all the time. It cannot be 
preserved. The only thing you can call for, really, is the 
lifting of restrictions and measures that suppress cultural 
expression. It should not be forgotten, too that when people 
call for Tibetan cultural preservation that we are often 
talking about sort of a folk culture or Tibetan monastic 
culture. Tibetan culture today is actually a very complex 
thing. You have modern secular writers in Tibet who are part of 
the Tibetan picture, too.
    The focus of a lot of efforts has also been in bringing 
China into negotiations with the Dalai Lama's government in 
exile and this has also been mired in misperceptions, I 
believe, largely coming from the Tibetan Government in exile. 
These were also picked up certainly during the Clinton 
Administration. It was and is a very important point for the 
United States, that what we should be doing is encouraging 
China to negotiate with the Dalai Lama. And the main obstacle 
to this--this is how it is often presented--is that China does 
not realize that the Dalai Lama has renounced Tibetan 
independence, which indeed he has. He has said that in the 
past, Tibet was independent, but for the future, Tibet does not 
have to be independent. He does not want Tibet to be 
independent. He has even said at one point, it would be a 
disaster, if Tibet were to be independent. Of course, China 
understands what the Dalai Lama is saying. But Chinese policy 
has evolved: it is a very clear-cut policy and it is very easy 
to see. China has decided that it really does not need the 
Dalai Lama.
    A number of years ago you had the case of the Panchen Lama. 
The Dalai Lama recognized a child as the Panchen Lama, the 
second highest ranking hierarch, as he is often termed, within 
the Gelugpa sect. And China, of course, rejected this; it was 
adamant and angry and chose another child as the Panchen Lama. 
In a sense, what this means is that China was essentially 
saying that it was going to control the Buddhist establishment. 
It was not going to have the Dalai Lama controlling the 
Buddhist establishment. More importantly, of course, is the 
fact that China's Panchen Lama is going to help find the next 
Dalai Lama. China had decided that it did need a Dalai Lama, 
but not the Dalai Lama; it could wait until the present Dalai 
Lama died. The Dalai Lama is not young, and Chinese policy has 
now come down to waiting for the death of the Dalai Lama. This 
is something which I have to emphasize because for so many 
years, the Tibetan Government in exile, in the face of all 
evidence to the contrary, and the United States Administration, 
which in many ways relied on information from the Tibetan 
Government in exile, acted as if what was needed was to get 
negotiations started between the Dalai Lama and the Chinese 
Government. The Chinese Government, of course, benefited 
because it could simply say, well, we would do it, of course, 
if the Dalai Lama were more sincere, and they would then elicit 
further statements from the Dalai Lama, which helped to 
undermine the case for Tibetan independence. Without seeming 
flip, it was a policy that I call the ``Dalai Lama dancing on 
one foot'' policy. The Dalai Lama would say ``No, I do not want 
Tibetan independence.'' The Chinese Government would say, 
``Well, you are not sincere. You have to say that you do not 
want Taiwan independence either.'' The Dalai Lama would say, 
``Well, I am not for Taiwan independence.'' The Chinese 
Government would say, ``Well, you are not sincere.'' It would 
seek more and more. It was simply buying time. And like it or 
not, it is important for this government, this Administration, 
and I think, everybody who cares about Tibet, to understand 
what is going on and what Chinese policy is, and to be 
guided by the actual facts of the issue, and not by what we 
hope they might be. I apologize for taking excess time.
    Mr. Wolf. Thank you. This is just supposed to set a 
framework. Arthur Holcombe, please.
    [The prepared statement of Mr. Sperling appears in the 
appendix.]

   STATEMENT OF ARTHUR N. HOLCOMBE, PRESIDENT, TIBET POVERTY 
                        ALLEVIATION FUND

    Mr. Holcombe. Thank you very much. It is also a pleasure 
for me to be here. I will also diverge a little bit from my 
prepared text. In the context of my previous experience, I was 
the resident representative for the UNDP [United Nations 
Development Program] in China during the 1990s. Later, starting 
in 1998, I established the Tibet Poverty Alleviation Fund. All 
of this has meant that I have been involved in development work 
in Tibet since about 1992, and so the perspectives that I would 
like to share here are looking at it from the standpoint of the 
economic and social trends in Tibet and what they mean for the 
international donor community.
    Around 1992, the Chinese Government introduced major new 
financial and residence liberalization measures in Tibet which 
resulted in a major influx of Han and Hui Muslim people. These 
people migrated primarily into urban areas or along main 
routes, and established businesses. However, along with them 
came farming populations from Sichuan and elsewhere, who went 
into greenhouse farming around the urban areas. This influx 
created a new dynamic in Tibet, and greatly stimulated economic 
growth. According to the Chinese Government, growth since 1992 
has been on the order of about 11.9 percent per annum--some of 
the fastest growth in the PRC during this period. In 2000, 
Central Government introduced its major Western Provinces 
Development Initiative. This was initially explained in terms 
of trying to boost economic growth and incomes among local 
ethnic populations, and helping them to catch up to the living 
standards of people in Eastern Provinces. More recently, it has 
become clear that the ``Western Initiative'' has been focused 
primarily on the development of gas, oil, other natural 
resources to the benefit of China as a whole.
    So what we have seen since 1992 is an urban oriented growth 
process which has focused on public sector infrastructure 
investment, supporting economic reforms and opening up. What I 
would like to highlight are some of the distortions that this 
urban growth has created as far as the Tibetan population is 
concerned.
    The first important implication is a very rapidly 
increasing income disparity between urban and rural areas. 
Because most of the Tibetans are living in the rural areas, 
there is also growing income disparity between the Han and 
Tibetan populations. The government does give some figures on 
this. It states that in 1996, urban family average per capita 
income was about $606, whereas, it was only $117 in the rural 
areas. Moreover, in the urban areas, average income was growing 
at five times that of the rural sector.
    Second, it has meant that because Tibet's infrastructure 
and investment have been largely urban focused, Tibetans in 
rural areas have not been provided opportunities to learn 
modern skills useful for employment in Tibet's modern urban 
sector. This greatly encouraged the government to continue to 
employ skilled migrants to implement urban investment programs.
    Third, Tibetan entrepreneurs in urban areas have 
experienced great difficulty in competing effectively against 
the rapidly growing number of better funded, better managed, 
and lower-cost Han enterprises. This competition from migrant 
enterprises has included even some of the traditional Tibetan 
artisan product sectors of the economy. So, we are seeing a 
squeezing out of traditional Tibetan entrepreneur in the urban 
areas due to the rapid growth and modernization taking place 
there.
    Fourth, there is also a growing influx of rural Tibetan 
youth, into the urban areas looking for employment 
opportunities, but without the skills needed to secure the jobs 
that they are looking for. This increasing unemployment is 
creating growing social problems, including crime and other 
illegal activity.
    The formal social and economic policies applicable to 
Tibetans in rural areas of Tibet are commendable. They include 
elimination of absolute poverty among most disadvantaged 
populations; universal access to basic healthcare; in rural 
areas, replacement of all 2-year community schools with 6-year 
State primary schools, and by 2003, achievement of 6 years of 
primary education for all rural primary school aged children; 
introduction of vocational skills curricula in primary and 
middle schools in rural areas; and by 2005, establishment of a 
home in winter village areas for all nomads that do not have 
them.
    The difficulty is that there is not enough money to 
implement these policies in a timely and comprehensive basis 
More central government funds are required to upgrade rural 
health and educational services and to greatly expand 
vocational skills training for unemployed Tibetans both in 
rural and urban areas. Unless they do, Tibetans will continue 
to be marginalized rather than benefited by the continued 
expansion of Tibet's market economy. Similarly, without 
priority to increased local vocational skills training, migrant 
labor will be required for the construction and operation of 
the new railway from Qinghai to Lhasa, and with it, further 
exacerbation of ethnic income disparities, and increased 
marginalization of Tibetans in traditional economic pursuits.
    To help compensate for this lopsided emphasis on investment 
in urban areas, the TAR government has been encouraging outside 
international bi-lateral and NGO [non-governmental 
organization] agencies to get involved. In particular, they 
have been encouraging them to assist into the rural sector, 
focusing on strengthening basic health and education, but also 
clean water supply and to some 
extent, vocational skills training. Most of this activity by 
outside donors located around main urban areas and in the 
Qomolangha Nature Preserve along the Nepalese border. But some 
organizations, like the Canadian CIDA [Canadian International 
Development Agency] and our own Tibet Poverty Alleviation Fund, 
have been encouraged to assist into closed areas of Lhoka and 
Nagchu Prefectures.
    I would like to relate a comment made to me in April 1998, 
by Mr. Guo Jinlong, who is the present Tibet Autonomous Region 
Party Secretary. At that time, when we were formulating our 
program of assistance in Lhoka and Nagchu Prefectures, he 
indicated to us his hope that we would focus on rural 
activities that would help to bring Tibetans into the market 
economy where they could benefit most from the economic reforms 
and modernization taking place. He also indicated that whatever 
we could do as an NGO to help benefit the traditional nomad 
populations would be very much welcomed. He further indicated 
that if we found ways to make progress in helping to bring 
nomad populations into the modern sector and benefiting from 
the economic reforms taking place, that the government would 
try to expand upon our efforts.
    I would like to just conclude by saying, that we, as well 
as other NGOs, have found it possible to collaborate 
effectively with the TAR government, at all levels to improve 
basic health and other human services of benefit to Tibetan 
communities. While we would like to see a reorientation of the 
TAR policies to give relatively more emphasis to rural sector 
activities that can help to improve Tibetan working and living 
conditions, we believe it is now possible for NGOs to cooperate 
successfully and help improve conditions for Tibetans.
    We also believe that it is very important for there to be 
stepped-up United States Government support to United States 
NGOs prioritizing Tibetan human development. This will help to 
signal the human development values and priorities that we, as 
Americans, believe ought to be given higher priority in Tibet. 
Thank you.
    [The prepared statement of Mr. Holcombe appears in the 
appendix.]
    Mr. Wolf. Thank you all very much.
    Each of us up here will have 5 minutes for quick questions, 
and we encourage discussion and interaction among the three of 
you.
    Let me start out with a question for Mr. Holcombe regarding 
your final comment. What would be the nature of additional 
United States Government support and help for NGOs working in 
the rural areas in Tibet?
    Mr. Holcombe. In the health sector?
    Mr. Wolf. Well, in health, or in any sector, economic 
development, business development.
    Mr. Holcombe. This is a complicated issue. In the education 

sector, many rural communities youth still only have 2-year 
community primary schools. Thus, for many Tibetan youth in 
rural villages, that is all the formal education they ever get. 
There is an important need for the government to successfully 
implement its policy of introducing 6 years of compulsory 
education at the primary level However, we also believe that 
U.S. NGOs can help to reform the curriculum to include 
vocational content that can help to prepare Tibetans for the 
world of work. The NGO I established is working with the TAR 
Education Bureau to introduce such reforms in 21 pilot counties 
of Tibet.
    In addition to that, I believe U.S. NGOs should give 
priority to vocational skills training that can equip Tibetans 
for jobs that require vocational and technical skills in rural 
and urban areas. We were told by the TAR Poverty Alleviation 
Office very recently that there is a government decision now 
that where Tibetans are qualified for work in the construction 
sector, they will be given priority over others. We believe 
that U.S. NGOs can help to prepare Tibetans for available 
construction sector jobs. One of our new programs will be 
working with the Nagchu Poverty Alleviation Office to launch a 
construction skills training program for Tibetans who will be 
working in 10 rural counties.
    In the health sector, there is a broad range of needs.
    There is presently a network of township clinics, 
backstopped by county level hospitals. These health facilities 
are inadequately staffed and equipped U.S. NGOs can help with 
training and upgrading the skills of local doctors to improve 
the quality of health services they provide. Success in 
improving the quality rural health services would also have the 
effect of building greater confidence in the rural health 
system, and increasing the utilization of available services.
    United States NGOs can help expand Tibetan community access 
to rural credit for income generating purposes. My NGO is 
currently providing small loans to about 1,000 Tibetan 
families. We find that after 4 years we have about a 95 percent 
pay back on loans. This is a payback rate substantially higher 
than the payback in the formal banking system catering more to 
the urban commercial sector. We also believe that United States 
NGOs can provide valuable technical and financial support to 
Tibetan entrepreneurs and enterprises in rural and urban areas. 
So there are a range of practical, economic, and social 
development initiatives that can and should be promoted by 
United States NGOs. I think United States government support to 
United States NGOs can expand and enhance the value of United 
States NGOs helping to improve working and living conditions 
for Tibetans in Tibet. It can also help to project the kinds of 
values and priorities that we think are important for Tibet.
    Mr. Wolf. Increased support? Do you mean U.S. money to 
NGOs?
    Mr. Holcombe. Financial support through NGOs.
    Mr. Wolf. Good. Bhuchung, please.
    Mr. Tsering. In addition to what Mr. Holcombe mentioned, 
the greatest problem that is in Tibet today is the economic 
marginalization of the Tibetan people. In order to avert that 
danger, I think it is imperative that the United States 
encourage NGOs to support projects in Tibetan areas which 
empower the Tibetan people at all levels. This can be done at 
the same time as enabling the Tibetan people to preserve their 
traditional handicrafts or other forms of production. Some NGOs 
are already doing that in Tibetan areas and therefore, I think 
whether it is Commerce or any other department which handles 
that aspect of the issue, should be encouraged to take steps to 
empower people economically.
    Mr. Wolf. Thank you.
    Mr. Sperling. I would just like to say that in some of the 
literature that has come out, people have pointed to the 
economic 
disparities and have said, what you have in Tibet is not really 
a national division. That is to say where Chinese are doing 
better than Tibetans, or Chinese, including Han and/or Hui, are 
doing better economically than Tibetans, it is an urban-rural 
division, and, therefore, there is no national aspect to it. It 
hardly matters though. The effect is the same and certainly the 
perception on the part of Tibetans is the same. Mind you, there 
are some Tibetans who are doing well or are doing better. But 
by and large indeed, you do have this divide. Whether you want 
to divide it along the rural-urban line, or along the Tibetan-
Chinese line, there is this perception that Tibetans are not 
doing as well as they might be doing, and it has to do with 
rule by China.
    Mr. Wolf. Thank you. Next is John Foarde.
    Mr. Foarde. I thank all three of you for sharing your 
expertise with us this afternoon. I am going to reserve my 
questions until later, because we have a number of colleagues 
here that I am sure want to ask you some questions. And we have 
very little time.
    Mr. Wolf. Next is Steve Marshall.
    Mr. Marshall. I have enjoyed this a lot, hearing three 
rather distinctive viewpoints here. It sounds like we have got 
basically two sides of this issue to deal with. One is quite 
political, insofar as the United States would be concerned, and 
is certainly grounded in this idea of nationalism. This is a 
very thorny and difficult issue.
    The other side is about what the United States can do for 
97 percent of Tibetans who are still living in the PRC. Their 
needs are much more immediate. They begin right now and their 
continuation starts tomorrow. So, I would like to ask two 
questions and see if we can get very quick ideas from you on 
these two things.
    On the political side, to follow up Elliot's idea, when the 
Dalai Lama passes away, and if China were able to appoint a 
replacement, would that indeed solve the problem for China?
    On the development side, the question is: Is it a good idea 
for Tibetans, particularly rural Tibetans, to learn the Chinese 
language so that they can participate in the job market more 
competitively? Whoever would like to reach for the mike first--
--
    Mr. Holcombe. I would like to respond to the second 
question. The language issue in Tibet is a tremendously 
complicated and difficult one. In the rural areas, Tibetan 
youth are going to primary school and learning the Tibetan 
language. And they are generally being taught by Tibetan 
teachers. Those that pass on to the middle school level begin 
to get instruction in the Chinese language, and also 
instruction of arithmetic and some basic science in the Chinese 
language. Most Tibetans do not get beyond the middle school 
level. If they do go on to the secondary level, then they are 
confronted with a predominantly Chinese curriculum. At this 
level Tibetan youth are at a distinct disadvantage in that they 
must compete against Han youth for available secondary school 
seats, and if 
admitted, they must compete against Han youth in Chinese 
speaking classes. Frequently, they get placed in slower, 
inferior course streams within their classes because of their 
language disadvantage.
    Tibetan youth who want to get better skill qualifications 
and better jobs, or who want to secure government jobs, must 
master the Chinese language. So it is a dilemma for both the 
government and Tibetans and I do not think there is any easy 
answer to it.
    Mr. Tsering. To answer the first question, I think it would 
be foolish for the Chinese authorities to assume that when the 
Dalai Lama is no longer there, the Tibetan issue will have been 
solved. In fact, the issue might deteriorate. The only reason 
why the Tibetan issue has become so peaceful and non-violent so 
far is the Dalai Lama's commitment to non-violence as a way and 
means of achieving a Tibetan political solution. Tibetans are 
only human beings. And there is already frustration building up 
inside Tibet. And when the Dalai Lama is no longer there to 
console the Tibetan people, they might as well take other paths 
which might increase the tension in the area as a whole. If you 
look at the map of Central Asia, tension in Tibet would have 
implications in other areas as well.
    The second question in terms of learning Chinese language 
in rural areas, I think the short answer is, that if this is 
done, not at the cost of learning Tibetan, then it is a 
political reality today that if Tibetans have to survive, they 
have to learn Chinese. Tibetans in exile learn three languages, 
so Tibetans should be capable of learning Chinese language, if 
they are given equal opportunities.
    Mr. Wolf. Thank you. Jennifer Goedke works for 
Representative Marcy Kaptur.
    Ms. Goedke. My question is going to be regarding, 
especially--Mr. Tsering, in your testimony you referred to the 
release of prisoners. As a commission, we have been charged 
with establishing a list of political prisoners. In your 
experience, how helpful are these lists? And how are they best 
utilized? Have you found some of these lists to be helpful in 
some of the releases you referred to in your testimony, or even 
in people that you are working toward releasing now?
    Mr. Tsering. Generally, anything that is done by the 
outside world, including the United States Government, whether 
it is raising the political prisoner issue or the Tibetan issue 
as a whole is helpful. Having said that, I think the Chinese 
Government unfortunately does not play by the same rules that 
the United States tries to play. Therefore, the Chinese look at 
their interests. As I mentioned earlier, the Tibetan political 
prisoners who were released have been released, not because the 
Chinese felt that that was their right, but because they 
thought they would win the support of other governments, like 
the United States, on this. So I think it is useful to keep 
account of the number of prisoners the Chinese Government is 
holding. It is useful for letting the Tibetan people know that 
the outside world cares about them.
    Ms. Goedke. Would anyone else like to speak to that?
    Thank you.
    Mr. Wolf. Thank you. Next is Karin Finkler, who works for 
Congressman Joe Pitts.
    Ms. Finkler. Thank you, Dr. Sperling. If you would like to 
ahead and finish the statement that you wanted to make before, 
that would be helpful. And also if you could address--you 
mentioned that the United States needs to, in its policies, 
address the real facts about Tibet. If you could clarify that 
in terms of specific policies that you would recommend, that 
would be helpful.
    Mr. Sperling. Well, that last part, of course, is a most 
difficult task, what to do in this situation--if I might, let 
me get back to the other two questions. I appreciate your 
asking me to finish with them. The language issue is 
particularly complex. China publishes a tremendous amount of 
material in Tibetan. This is quite laudatory. They publish old 
classical Tibetan books, they have magazines; they have 
newspapers. There is a lot going on in terms of Tibetan 
publishing. But--and I always say this--the crux of the matter 
is, what is the viability of the Tibetan language day-to-day? 
As an academic, as a scholar, of course, I am thrilled to see 
all of this material in Tibetan to see texts that I can use. 
But until Tibetan is the administrative language, until it is 
the day-to-day language of administration and of commerce, it 
is endangered. And I say this with trepidation. By the way, 
there has been another announcement recently, that cadres in 
Tibet should learn the Tibetan language. But the fate of such 
sentiments and announcements remains to be seen.
    With the economic development that we see, particularly 
with the proposed rail link between the Tibetan capital and 
Golmud and the influx of tremendous numbers of people from 
China proper, the Tibetan language is going to be under serious 
pressure.
    Now as for the question about the Dalai Lama: the fact of 
the matter is--and I really don't even think it is conjecture 
at this point--China's policy is to wait for the Dalai Lama to 
die. The question was, would this be effective? I do not think 
so. But China obviously does. They think this will effectively 
put an end to the Tibetan issue. Of course, over the years, 
they have tended to personalize the Tibetan issue. They have 
often treated the Tibetan issue as if it were simply a question 
between the Dalai Lama and the Chinese Government. And the fact 
of the matter is that I do not think this is going to end this 
issue. It is difficult to say what is going to happen, if 
Tibetan nationalism becomes more fragmented, which is a 
possibility, unfocused and perhaps unpredictable; I do not 
know.
    Policy recommendations. This is a very tricky subject. As I 
think everybody here knows, the United States does not 
recognize Tibet as an independent country. The Dalai Lama does 
not advocate that Tibet be an independent country. But just 
about all of the dissidents and activists inside Tibet, and I 
would say, most of them outside Tibet are advocating Tibetan 
independence. It often comes down to the United States not 
advocating Tibetan independence which is outside the pale as 
far as United States foreign policy is concerned. But what does 
one do with a Chinese Government that consistently and harshly 
represses dissent on this issue? It is a very tricky and 
complex issue.
    If we press China to respect human rights, that includes 
freedom of expression. It includes the expression of dissenting 
political opinions, particularly on the status of Tibet. And if 
you have free dissent, public meetings, circulation of 
materials, you are going to have increased sentiment and 
increased pressure, along these lines. Do you then say, well, 
we understand that this is something that China does not want. 
And even though advocacy is non-violent, we agree that it 
should be suppressed and that people should be locked up for 
it. It is a conundrum. I am not giving you an answer--clear-cut 
steps, one, two, and three, but at least we should understand 
what the situation is. If you press China for respect for human 
rights, including freedom of expression, you have to understand 
you are also going to be asking them to respect the right of 
Tibetans to express themselves on Tibetan independence and that 
will have an effect.
    I should also add that we often take the view in the United 
States that what Tibet needs is cultural preservation and 
material development; that if Tibet develops materially, then 
that will resolve the issue. But again, you are dealing with a 
nationalist question. It is emotional. If you look at the 
dynamics in other areas, in Eastern Europe, for instance. The 
fact of the matter is, that when an authoritarian government 
begins to liberalize, often it is then, as conditions improve 
politically and materially, that people turn themselves to 
political desires, and political activism.
    Mr. Wolf. Next is Matt Tuchow with Congressman Sander 
Levin.
    Mr. Tuchow. My question is also about policy 
recommendations. I want to ask all the panelists, or at least 
those who have not spoken to this yet. What specifically do you 
recommend that we, the Commission, recommend to Congress and 
the Executive Branch, to do about the issues and the problems 
that you have identified? That is a broad area and I want to 
give you leeway to respond to that. But a more specific 
question relating to this would be, if Han immigration is 
agreed by all of you to be of singularly strong impact in the 
Tibetan areas, what antidote is there for this in terms of law 
and policy? But answer either the broad or the specific or 
both.
    Mr. Holcombe. Because local ethnic populations, including 
Tibetans, lack the skills necessary to secure employment in 
major construction, transport or mining activities, it would be 
necessary to utilize the skills of Han people for the 
construction and operation of the large investment projects. 
Only with a major commitment to employable skills training for 
local ethnic minorities, backed by legislation giving priority 
to the employment of local ethnic minority people when they had 
the requisite skills, would it be possible to reverse the 
present Han migration patterns found in Tibet and other western 
regions.
    From a practical standpoint, what the United States 
Government can do is support U.S. NGOs active in these western 
regions, which are concerned about the development and welfare 
of ethnic minorities, and are in a position to help provide the 
types of training that will enable ethnic minorities to qualify 
for employment on major investment and construction projects 
that would otherwise require outside migrants. U.S. NGOs can 
help to highlight the particular beneficial types of training 
initiatives and demonstrate that they can, at the same time, 
bring Tibetans and other ethnic minority populations into 
mainstream economic life.
    Mr. Tsering. Two points. The United States at the political 
level should discourage the Chinese Government at every 
instance in which they take steps to send Chinese people to 
Tibet in different ways. At the economic level, I think maybe 
the Commerce Department is the right department who should look 
at ways to discourage being involved in projects in Tibetan 
areas which contribute to the migration of Chinese. In the 
past, there was the instance of the World Bank investment, and 
now there is the railroad. There are gas pipelines and other 
activities which the corporate world looks to in Tibet.
    Mr. Sperling. I would just point out that China views this 
economic development, this integration within the great Western 
Development scheme, as something that, in addition to being 
part of the general development of the western areas of the 
PRC, will by drawing Tibet into the Chinese economy, reduce 
instability. Those things, which, well-intentioned as they are, 
seem to be part of a separate Tibetan economy, would be looked 
upon, I think, without great favor. The whole point is to 
integrate Tibet into the Chinese economy, and, hence, too, you 
are going to have an increasing influx of people from Chinese 
interior.
    Mr. Wolf. Thank you. Arlan Fuller, who is with Congressman 
Sherrod Brown.
    Mr. Fuller. The question is actually to the three of you on 
the issue of Tibetans in exile, specifically in Nepal.
    It seems from what I have been hearing in Nepal with the 
Maoist insurgency, that the conditions for refugees have been 
increasingly more inhospitable. I was wondering if the three of 
you might be able to enlighten us a bit on what the conditions 
are right now for refugees in Nepal and India, and so forth.
    Mr. Tsering. The situation of Tibetans in Nepal, 
particularly the newest comers who escaped from Tibet through 
Nepal, was precarious in the past. But it has become more so in 
recent times because the Nepalese Government has been cracking 
down on Maoist insurgency. And the Chinese Government seems to 
be taking advantage of that to pressure the Nepalese to take 
action on Tibetans. One indication of this is that last year, 
and the year before, there was a great difference in the number 
of Tibetans coming out, escaping out through Nepal.
    Certainly, the Nepalese Government, because it seems to be 
walking a tight political rope, bowed to the pressure of the 
Chinese Government so that it deprived the Tibetan people, 
newcomers as well as the resident Tibetan refugees, basic 
political rights, rights such as the right to assembly, the 
right of freedom of speech, etc. Of course we understand the 
Nepalese Governments situation, but there are ways that the 
Nepalese Government can protect and respect the rights of the 
Tibetan people without facing the wrath of the Chinese 
Government. That is something which we feel ought to be done.
    For your information, The International Campaign for Tibet 
has done a report on the Tibetan refugees in Nepal, which is 
coming out soon.
    Mr. Sperling. I would simply point out that there has been 
a lot of--and I phrase this mildly--unpleasantness along the 
border between Tibet and Nepal over the years, particularly 
with local Nepalese authorities along the border, who have in 
some ways abused Tibetan refugees and in some instances sent 
them back. So it has always been somewhat difficult before 
Tibetans finally managed to get down to Kathmandu.
    As far as the Maoist insurgency goes, I think that is 
something which is quite frightening to Tibetans in Nepal, but 
it is also frightening to Nepalese.
    Mr. Holcombe. Nepalese that I have met in Lhasa are very 
worried about this situation and see this as an impending 
national crisis, one that goes far broader and deeper than just 
the Tibetan communities there. It is a very serious situation, 
whose outcome is by no means certain.
    Mr. Wolf. Thanks. Last is Dave Dettoni, with Congressman 
Frank Wolf.
    Mr. Dettoni. Thanks, Ira. How many Buddhist monks and nuns 
are imprisoned in Tibet? Does anybody know?
    Mr. Tsering. Amnesty International came out with a report 
this year in which they documented 250 political prisoners. 
Most of them are monks and nuns. As for specifics, it is very 
difficult to say. At the height, it ranged in the several 
thousands, but maybe lately, people see the number of prisoners 
have been decreasing.
    Mr. Dettoni. Why is it difficult to determine who is in 
prison and who is not?
    Mr. Tsering. I think, first of all, it is the basic 
structure of the system in China. It is a communist system 
where the rights of the people are, to say the least, not 
respected. So it is difficult to say. And also, the Chinese 
judicial system, there is a fine line between who is detained, 
who is under observation and who is under investigation. This 
puts us in a difficult situation.
    Mr. Dettoni. My understanding is that a number of prisoners 
were in prison during the reign of Hu Jintao. Are there still 
Tibetan political prisoners and Buddhist monks and nuns who 
were arrested and put in prison when Hu Jintao was Governor?
    Mr. Tsering. I think our investigation shows that there 
were, I think, 25 political prisoners who are still in prison.
    Mr. Dettoni. So how long have they been in prison?
    Mr. Tsering. We are talking about the period from 1989 to 
1993.
    Mr. Dettoni. These are monks and nuns?
    Mr. Tsering. I would not say that they all are monks and 
nuns.
    Mr. Dettoni. So would it be fair to say that these people 
are in prison for practicing their faith?
    Mr. Tsering. Sure. They were trying to preserve their basic 
religious and cultural identity.
    Mr. Dettoni. That is a long time to be in prison.
    That being said, about Hu Jintao, and these folks still 
being in prison, how do you think Tibet will be treated and 
what is your prognosis for Tibet if Hu Jintao climbs the next 
step in the ladder of politics in China?
    Mr. Tsering. That is a question which many of us are still 
trying to tackle. But one thing is for sure. He may not be 
better than any of the past leaders, but what he will have is 
direct experience of dealing with the Tibetans. And he has this 
opportunity. If he wants to do something better for the 
Tibetans, he has the opportunity, because he knows the Tibetan 
issue better than any of the past central leaders. On the other 
hand, if he wants to strike down heavily on the Tibetans, he 
can do that because he also knows the Tibetans better, and how 
to deal with them.
    Mr. Dettoni. This question has come up a couple of times 
today and in previous hearings as well. What will be the best 
way to help promote human rights and religious freedom in China 
and Tibet when Hu Jintao takes office? Given his knowledge of 
Tibet, what would be some of the more effective things this 
Commission can do to help promote change in Tibet for human 
rights and religious freedom?
    Mr. Tsering. I think one thing that the United States 
Government, including Congress and the Administration, is to 
continually put the spotlight on China's attitude in Tibet.
    This is important. We at the International Campaign for 
Tibet, do not ask the government to isolate China. The 
government should engage with China. But at the same time, even 
as they engage in trade, or any other aspect of life, they 
should not hesitate in raising issues of political freedom, 
human rights, issues of religious freedom, as strongly as they 
raise issues of bilateral trade. As soon as China realizes that 
they cannot avert the issues of human rights, they cannot avert 
the issue of religious freedom, then they will be forced to do 
something about it.
    I want to quote Secretary of State Colin Powell. He dealt 
with this issue and he said, ``It is a difficult situation 
right now with the Chinese sending more and more Han Chinese to 
settle in Tibet, which seems to be a policy that might well 
destroy Tibet. I think we have to reenergize our discussions 
with the Chinese to let them know that this is another example 
of the kind of behavior that will affect our entire 
relationship, and to show our interest and solidarity with the 
Dalai Lama and the people of Tibet.'' If the Chinese get this 
message strongly and consistently, they will be forced to do 
something.
    Mr. Dettoni. Would it be helpful if top United States trade 
negotiators and top U.S. Commerce Department people, USTR or 
American businessmen, raise specific cases of prisoners and 
religious freedom and human rights with their Chinese 
counterparts?
    Mr. Tsering. I do not know if it will be helpful in 
releasing the prisoners, but it will be helpful in sending that 
message to the Chinese Government that they cannot ignore these 
aspects of the issues.
    Mr. Wolf. OK. Thanks. We are not going to have time to go 
for a second round, so if you have some final comments, or 
something you want to reiterate, do that over the next few 
minutes. Bhuchung.
    Mr. Tsering. Some people in the business world tend to 
project all Tibetans as being against business dealings with 
China and try to make that a big case when we talk about 
investment in China, etc. The thing to realize, as I mentioned 
earlier, we encourage governments to be dealing with China, but 
at the same time we encourage them to talk strongly about the 
human rights aspects in Tibet. This is important if at all, the 
Chinese are going to change their policy on Tibet. We are 
living in what is called a globalized world and if the trade 
relationship can somehow be connected with empowering of the 
Tibetan people, and the changing of the Tibetan people's human 
rights situation, only then can something be effective.
    Mr. Wolf. Thank you. Elliot.
    Mr. Sperling. I would address two points. One, I would 
address the point about raising the issue with China. I would 
simply point out that the United States does have a track 
record, particularly in the old days before PNTR [Permanent 
Normal Trade Relations] was PNTR, when it was MFN [Most-Favored 
Nation], of constantly threatening to do things and then 
stepping back. I think that has created an environment in which 
many of our threats are taken with a grain of salt, 
particularly when dealings with companies like Boeing and such 
enterprises are put on the block.
    The other thing I would point out is with regard to this 
comment about Buddhists practicing their faith and being put in 
prison for practicing their faith. I think that has to be 
nuanced. It is not as if Tibetans simply performing very simple 
Buddhist ceremonies and Buddhist practices are going to be 
imprisoned. China does allow freedom of religion. But when it 
perceives state interest to be at issue, it clamps down. And 
that includes allegiance to the Dalai Lama, and not recognizing 
the publicly disputed Panchen Lama, whom I mentioned in my 
statement. These are basic areas of course, in which you could 
say religion is at issue. The other thing that I would point 
out to you is that religion in Tibet is not simply religion. It 
is a marker of Tibetan nationalism. I have used this term quite 
a bit. Much as the Catholicism in Poland differentiated Poles 
from Russians who were either Orthodox or Marxist, Tibetan 
Buddhism really differentiates Tibetans from Chinese. It is a 
marker of Tibetan nationalism. And for many Tibetans who are 
not in the clergy, the clergy embodies a degree of Tibetaness. 
So there are a lot of factors involved in this beyond simple 
religious practice.
    Mr. Holcombe. Yes. I will very briefly make three points. 
In terms of the question of Hu Jintao, I think we are going to 
see a continuity of policy in Tibet. It is not going to vary 
because of new leadership in Beijing. We are going to see a 
continuing of the present economic reforms, and opening up, 
including policies that encourage outside migrants to go to 
Tibet to secure employment in the public and private sectors.
    My second point is that for some time China has encouraged 
overseas Chinese to come back, and invest in China. This has 
been mutually beneficial to the investor and to China. The 
United States should urge China to allow overseas Tibetans to 
return and contribute to the economic and social development of 
Tibet. Some have in fact returned, and others should be 
encouraged to return in larger numbers to invest in ways that 
contribute to the further employment and welfare of Tibetan 
people.
    My third point is that it is very important that we, as 
Americans, find every possible way to project our human 
development values in Tibet. Even though it is only in limited 
ways that we can do it, it is important nevertheless, to have 
organizations working inside Tibet and doing the kinds of 
things that are empowering Tibetans to take more control over 
their lives, to be more successful and to improve their living 
standards.
    Mr. Wolf. Thank you all very much. This has been a big help 
to all of us. It will be a major contribution to the report 
that the commissioners will be presenting in early October. We 
thank you, and we will move on to the next panel.
    As we move on, the two participants in the second panel are 
Dr. Dolkun Kamberi, who is director of the Uighur Language 
Service at Radio Free Asia, and Dr. Justin Rudelson, who is the 
executive director of the Institute for Global Chinese Affairs 
at the University of Maryland. Since you were both here, I do 
not have to explain how the process works. Dolkun, would you 
start, please?

   STATEMENT OF DOLKUN KAMBERI, DIRECTOR OF UIGHUR LANGUAGE 
                  SERVICE FOR RADIO FREE ASIA

    Mr. Kamberi. Thank you for inviting me here today to 
present on the subject of Uighurs and Uighur identity. I have 
divided my research presentation into nine different sections. 
That includes: introduction, Uighurs, linguistic identity of 
Uighurs, cultural identity of Uighurs, artistic identity of 
Uighurs, musical identity of Uighurs, historical identity of 
Uighurs, regional identity of Uighurs and conclusion. It is 
very difficult for me to draw a complete picture on the subject 
within 10 minutes; I will do my best.
    The basic meaning of the name Uighur is ``unity.'' But it 
may also be translated as ``union,'' ``coalition'' or 
``federation.'' The name appeared first in records of the 
Orkhun Kok Turk inscriptions and in early Uighur. Later forms 
of the name can be found in medieval Uighur, Manichaean, and 
Sogdian scripts, and the Arabic script of the Uighur Qarakhanid 
and Chaghatay periods. Apart from these Central Asian forms, 
the name can be found in different periods and diverse texts in 
Chinese, appearing in more than 100 translation forms.
    About early Uighur culture and its history, kingdom 
Professor Denis Sinor wrote,

    The kingdom of Khocho [Idiqut Uighur Kingdom], ruled by the 
Turkic Uighurs, was multiracial, multilingual and it permitted 
the peaceful coexistence of many religions. It enjoyed a living 
standard unparalleled in medieval Central Eurasia. Among the 
non-Muslim Turkic peoples, none has reached the degree of 
civilization attained by the Uighurs, and they developed a 
culture in many respects more sophisticated than that of most 
Muslim Turks. In the visual arts, they continued tradition, 
non-Turkic in origin, of which they maintained very high 
standards. The script they used gained widespread acceptance 
both to the east and the west. The Uighurs undoubtedly wrote 
one of the brighter chapters of Central Eurasian history.

    The German archaeologist, A. Von Le Coq, cut off many wall 
paintings, which were shipped back in several hundred cases to 
Berlin. The British archaeologist, Aurel Stein, who visited 
Bezeklik at the end of 1914, indicated that, in terms of 
richness and artistry, no other finds from similar sites in the 
Turpan Basin can match those of Bezeklik, which parallel the 
rich ancient paintings of the Dunhuang ``Thousand Buddha'' 
caves. Professor Albert Grunwedel writes in a letter dated 
April 2, 1906, ``For years I have been endeavoring to find a 
credible thesis for the development of Buddhist art, and 
primarily to trace the ancient route by which the art of 
imperial Rome, etc., reached the Far East. What I have seen 
here goes beyond my wildest dreams. If only I had hands enough 
to copy it all. For here in the Kizil are about 300 caves, all 
containing frescoes, some of them very old and fine.
    Based on history, literature, religion, content, and script 
of Uighur linguistic material, I have classified Uighur 
language into five different periods: The first is the pre-
historical Uighur language. Before the 6th CE, no written 
material in Uighur has been found so far, but language came to 
us throughout Uighur oral literature, idiom, idiomatic phrase, 
folk story, folk song, folk literature, and ancient mythology 
and lands in other language records.
    The second period is the ancient Uighur language from the 
6th century to the 10th century CE, mostly pre-Islamic 
literatures, which had influence from non-Altaic language.
    The third period is the medieval Uighur language from the 
10th century to the 15th century CE. There is mostly Islamic 
literature, which got strong influence from Arabic and Persian 
languages.
    The fourth period is the contemporary Uighur language 
period from the 16th century to the end of the 19th century CE. 
Elishir Nawayi's works are the main representative of the era.
    The fifth period is the modern Uighur language period from 
the end of the 19th century to the present.
    Modern Uighur language belongs to the Ural-Altaic language 
family, Turkic language group of the eastern branch. Among the 
major six Turkic languages, Turkish and Azeri languages are 
very close. Kazakh and Kyrgyz languages are closely related, 
and Uighur and Uzbek languages are coupled. They can 
communicate with each other on simple subjects without learning 
the other language. The modern Uighur language has two major 
dialects: southern and northern. According to the Chinese 2000 
official census, the population of Uighur native speakers is 
near 9 million. But independent sources claim the Uighur 
population is about 16 
million. In the past 10 years, Chinese population in the region 
increased almost 32 percent. In 1949, the Uighur population 
constituted more than 90 percent and the Han Chinese population 
comprised 5 percent of the total population of the Uighur land. 
The Chinese population increased about 500 percent from the 
original 5 percent of the total population of the Uighur land 
in the year 2000.
    Among the states of the Central Asian regions currently, 
the stateless Uighurs historically formed the leading group of 
the region for centuries. They possessed a rich literary art, 
strong economy and military, the ability to conduct state 
affairs and to help others to solve different problems. They 
showed generosity and offered their hospitality across time. 
Uighurs and their ancestors built their reign under the rule of 
the Hun, 2nd BCE to 2nd CE, the Jurjan, 3rd CE to 5th CE and 
the Turk Empires 522 CE to 744 CE. Uighurs also established 
their own states throughout history. Their states include the 
Uighur Ali, 744 CE to 840 CE, the Idiqut Uighur 840 CE to 1250 
CE, the Uighur Qarakhan 10th CE to 13th CE, the Uighur 
Chaghatay, 13th to 16th CE, the Yarkant Uighur Khanate 1514 to 
1678, the Qumul and Turpan Uighur Baks from the end of the 17th 
CE to beginning of the 19th CE, and finally the Yakup Bak, 1820 
to 1877, which lasted until Qing's invasion. Uighurs reclaimed 
Uighur land as the Republic of Eastern Turkestan in 1933 and 
the Eastern Turkestan Republic in 1944 through 1949.
    The president of Eastern Turkestan Alihan Ture was called 
back by Stalin in 1946 to Russia, and lived in Tashkent until 
1976. His successor Ahmatjan Qasim, Eastern Turkestan army 
Chief General Isaqbeg, deputy army chief general, Dalilkan 
Sugurbayev, a member of Eastern Turkestan Central Government 
Abdukerim Abbasov, died in a mysterious plane crash on their 
way to Beijing on August 22, 1949. Abduruf Mahsum, the General 
Secretary of the State of the Eastern Turkestan Republic, is 
still alive in Almaty, Kazakhstan. He is 88 years old. I met 
him last year. From 1946 to 1949, Russia and China engaged in 
many governmental structure reforms in the Uighur land. During 
the reforms, both Russian and Chinese Government 
representatives promised again and again to the Uighurs that 
the presence of the Chinese army in the Uighur land is to 
promote democratization, free elections and high autonomy, to 
help build the new Xinjiang, even independence for Uighur in 
the future; as Zhang Zhizhong promised at the summit of Chinese 
Nationalists, Communist and Uighurs in Urumqi in 1946.
    After 1950, several times the Communist revolutionary 
moment in China has touched almost every aspect of traditional 
culture, especially crucial for Uighur land during the Cultural 
Revolution. The revolutionists found that every aspect of 
culture in Uighur land was different from that of China. That 
included languages, writing systems, the arts, literature, 
ideas, values, attitudes, history, religion, customs, music, 
dance, songs, the way that people think, even the features of 
people, their clothes, house decoration, as well as food and 
the like.
    After September 11, China increased Chinese military at the 
Central Asian borders, and they sent more armed police and non-
uniformed security forces into the big cities of Uighur land to 
control Uighur people, intensifying already high tensions. 
Recently, Chinese authorities have stepped up the ``Strike 
Hard'' campaign against Uighur dissidents. According to an 
Amnesty International report, which was released in 1999 and 
recently, the Uighur region is the only region of China where 
political and religious prisoners have been executed in recent 
years. The Chinese Government has also put tremendous pressure 
on Central Asian countries such as Kazakhstan, Kyrgyzstan, and 
Uzbekistan, not to support Uighur political activists or harbor 
Uighur dissidents. They are pressuring Central Asian 
governments and Pakistan to return Uighur dissidents to China 
with accusations of terrorism.
    The Chinese Government simply labeled Uighurs as terrorists 
and tried to condemn two contemporary Eastern Turkestan 
republics established during the 1930s and 1940s as the origin 
of terrorists. As we know, the concept and terms of 
``terrorism'' and 
``terrorist'' do not exist in Uighur general knowledge and in 
their language throughout history. Modern Uighurs use loaned 
words directly borrowed from English terminology for these 
notions.
    The government-owned Kashgar Uighur publishing house burned 
128 copies of ``A Brief History of the Huns,'' and ``Ancient 
Uighur Literature,'' which officials view as fermenting 
separatism. It also burned 32,000 copies of ``Ancient Uighur 
Craftsmanship,'' also regarded as promoting separatist 
religious beliefs, according to sources in Kashgar. ``Burning 
Uighur books is like burning the Uighur people. Even under the 
Chinese constitution, these Uighur books should be protected as 
part of the Uighur cultural heritage,'' said one local Uighur. 
According to the official Kashgar Daily, the Kashgar Uighur 
Publishing House has also censored more than 330 books and 
stopped publication of other volumes. Another Uighur 
intellectual sadly indicated, ``Burning those Uighur books 
recalls images of Hitler and Chairman Mao's campaign during the 
Chinese Cultural Revolution.''
    It is time for the United States Government to pay more 
attention to the seriousness of the political, economic, 
cultural, and 
religious discrimination and abuses facing the Uighurs and the 
Tibetans. Widespread abuses of human rights, unequal wealth 
distribution, economic, ideological, cultural exploitation and 
joblessness are affecting almost every family of near ten 
million Uighurs in China. Saving the Uighur culture is like 
saving our own culture. I ask of you, the U.S. Government, to 
establish a coordinator in the U.S. State Department on Uighur 
issues to help consult the U.S. Government on policymaking 
decisions regarding Central Asia and China. The White House 
Administration should consider opening a United States 
Consulate in Urumqi. The State Department should establish an 
immigration quota to help Uighur refugees hiding out in Central 
Asia and surrounding countries; also establish an academic 
research institution focusing on Silk Road civilization, and 
create more educational opportunities in the United States for 
Uighur youth. The United States Government should coordinate 
with the United Nations and NGOs to promote human rights and 
religious freedom for Uighurs. The United States should also 
put stronger pressure on China to release Uighur businesswoman, 
Rebiya Kadeer, and periodically, send Congressional 
delegations, including Uighur dissidents, to Uighur land to 
examine the state of human rights and religious freedom in the 
Uighur Autonomous Region.
    Thank you.
    [The prepared statement of Mr. Kamberi appears in the 
appendix.]
    Mr. Wolf. Thank you. Justin.

STATEMENT OF JUSTIN RUDELSON, EXECUTIVE DIRECTOR, UNIVERSITY OF 
                 MARYLAND INSTITUTE FOR GLOBAL 
                        CHINESE AFFAIRS

    Mr. Rudelson. I would like to thank the Commission for 
inviting me and thank Anne Tsai, who made it possible for both 
of us to be here.
    I have been working on Xinjiang issues for the last 20 
years. My initial mentor was Louis L'Amour, the western writer, 
who loved this area. He, I think, would be very proud that I am 
here speaking.
    China claims Xinjiang to be the front line in its war 
against international terrorism, maintaining that Xinjiang 
harbors Uighur Muslim extremists intent on overthrowing Chinese 
rule with the support of bin Laden's terrorist network. China 
is indeed invoking bin Laden's name to justify its crackdowns 
on the Uighurs and Islam that have been going on with a 
vengeance in Xinjiang since at least 1990. In Beijing's view, 
Xinjiang has a greater potential than all other regions of 
China to cause upheaval, something which could bring 
instability to Tibet, Hong Kong, and Taiwan.
    While Uighur militants have carried out several anti-
government bombings over the past 20 years, Beijing's labeling 
the Uighurs as terrorists with connection to the Taliban, al 
Qaeda and bin Laden is, frankly, a terrifying appeal to United 
States anti-terrorism sympathies. There is evidence of only 13 
Uighurs involved with Taliban fighters, and we do not know how 
many of these come from the Uighur exile community in Pakistan 
that left Xinjiang in the 1930s. To be fair, China is in a no-
win situation. No matter what it does to develop Xinjiang, many 
Uighurs will see it as part of China's colonial domination. 
They view each discovery of oil as leading to Uighur wealth 
being stolen from them. Each new road facilitates Han Chinese 
immigration to the region, that will essentially make them a 
minority in their own autonomous region.
    Beijing uses Western-style affirmative action economic 
rewards mixed with political and military crackdowns to 
undermine Uighur calls for independence and solve Xinjiang's 
problems. As part of China's ``manifest destiny,'' Beijing is 
fulfilling its responsibility to modernize Xinjiang, and, 
economically, Xinjiang has thrived. In 1991, Central Asian 
independence had very little impact on people in Xinjiang, 
because most recognized then and now that Xinjiang is 
economically a lot better off than Central Asia.
    Jiang Zemin's regime has arguably delivered China's most 
stable decade in the last 150 years. However, the experimental 
nature of Chinese development in Xinjiang opens it to enormous 
risks. For example, Beijing is connecting Xinjiang to Central 
Asia's new trade, rail, and road links with Kazakhstan and 
Tajikistan. But these very openings are splitting the Uighur 
Nation apart--and I will talk about this in questions if there 
are any questions--and exposing Xinjiang directly to Islamic 
militants and drug trafficking from Central Asia. In 1999, 
China completed the railway that connects Urumqi to Kashgar to 
assist its economic boom. Militant Uighurs are certain to 
accelerate violent action against the large number of Han 
immigrants who are settling in this traditional Uighur area as 
well as against the trains that carry them.
    Uighur resistance to Beijing takes many forms. In the oasis 
villages, many Uighurs participate in the revival of Islam and 
Sufism. Only a very few Uighurs have turned to militancy. And 
almost all of these militants are Uighur secular nationalists. 
They are seeking independence from China, whose struggle is not 
connected with Islam.
    As Dr. Kamberi mentioned, in the mid-1990s, Beijing 
unleashed a series of police crackdowns called yan da, or 
``Strike Hard,'' against what it called ``illegal religious 
activities and splittism,'' that equated Islam with subversion. 
Two months after the first Shanghai Five meeting in 1996, an 
alliance that has given China extreme latitude to crack down on 
Xinjiang's Uighurs, China launched ``Strike Hard'' crackdowns 
against Uighur ``separatism'' that initiated a tragic cycle of 
Uighur anti-government resistance alternating with harsh police 
retaliation that continues today. According to Amnesty 
International, since 1996, one Uighur has been executed in 
Xinjiang an average of every 4 days. Few Western countries have 
voiced concern.
    By clamping down on all Islamic practices as fundamentalist 
or potentially militant, China provides no moderate alternative 
for Islamic education. And I see the possibility here for an 
alternative use of Islamic education being very positive. This 
current policy only produces greater militancy among China's 
Muslim population. For example, in 1997, Uighur students in 
Yili, the most secular region of Xinjiang, launched a grass-
roots campaign against alcohol. Alcohol addiction is destroying 
the Uighur people, much as it has our own Native American 
peoples. Uighur students developed their health campaign 
against alcohol to encourage liquor stores to diminish their 
sales and to get Uighurs to limit consumption. The government 
saw the campaign as motivated by fundamentalist Islam. Over 
5,000 students protested against government attempts to end the 
campaign, and in the ensuing clashes between police and 
students an estimated 300 Uighurs were killed.
    Besides alcohol, HIV/AIDS has brought the most devastating 
threat to Uighur survival as a people. The HIV/AIDS epidemic in 
Xinjiang is developing into a significant geopolitical problem 
that warrants close attention from the United States. Heroin 
started coming into Xinjiang in 1994 from Burma. Within a 
drastically short time, Xinjiang has emerged as China's most 
seriously affected region and the Uighurs are the most affected 
of all of China's peoples. Most of the Uighur HIV sufferers are 
intravenous drug users. Most addicts live underground to evade 
police detection. In Xinjiang, there are no anti-retroviral 
drugs available. The Uighurs face an epidemic chain of 
infection, devastation, and disintegration as the number of new 
HIV cases grows exponentially each year. Testing is 
prohibitively expensive. There are no hospitals in Xinjiang 
prepared to treat patients with full-blown AIDS. This 
information is collected from the Johns Hopkins University, 
which has an HIV station in Urumqi.
    Although international teams are working in Xinjiang, the 
programs are limited in scope, with a lack of sharing of 
information among the various organizations. Such coordination 
is crucial to prepare for the rising numbers of Uighur patients 
as they develop full-blown AIDS, and as Uighur disaffection and 
anger mounts as the AIDS toll climbs. Young Uighurs infected 
with HIV/AIDS will feel desperate, enough perhaps to strike out 
at Han and government targets as suicide bombers. To deal with 
the AIDS nightmare in Xinjiang, China needs to partner with 
international organizations to reduce opium production in Burma 
and Afghanistan. So far, the entire supply of heroin entering 
Xinjiang is from Burma. If China cannot keep Afghan heroin from 
entering Xinjiang under the Karzai regime, it will be 
catastrophic for the Uighurs.
    The HIV/AIDS epidemic in Xinjiang is more of a security 
concern than a humanitarian one, warranting immediate attention 
from the United States and its allies. The epidemic will 
radically affect China's national security and stability. 
Xinjiang's HIV/AIDS crisis, when put within the context of the 
regional HIV/AIDS epidemic affecting China, Russia, India, 
Pakistan, Afghanistan, Iran, and the Central Asian nations, 
starkly reveals that Xinjiang and the entire geopolitical 
region face a security crisis of the gravest proportions. In 
South Africa, where the AIDS trajectory has reached its most 
extreme extent, the military currently has an HIV infection 
rate of over 90 percent, mainly spread by contact with 
prostitutes. As the armed forces are one of the most at-risk 
segments of society for HIV, it is predicted that the 
militaries of all the countries in this region, including 
China's, will be profoundly affected within 5 to 10 years by 
HIV infection. I am not just speaking of Uighurs here. 
Professor Sperling and others spoke about the Northwest 
Development Project. Ethnic Han coming to this region, such as 
truck 
drivers, unmarried pioneers, soldiers, prostitutes, and 
government officials are all high-risk vectors for the spread 
of HIV/AIDS. Ethnic Han, although the government might see this 
as a Uighur disease in Xinjiang, will also be severely 
affected.
    Economically, the treatment of opportunistic diseases 
associated with HIV/AIDS, such as tuberculosis and sexually-
transmitted diseases, are sure to wipe out most, if not all, of 
the monetary gains that Chinese development will bring to 
Xinjiang. Moreover, Xinjiang's health system will be too 
financially devastated to react to patients with full-blown 
AIDS, a situation that is certain to provoke rioting and 
militant action against a Chinese Government seen to be 
heartlessly unresponsive.
    In order to stem such rioting and militancy, the 
cooperation in combating terrorism developed between China and 
the United States in the wake of the September 11 tragedy must 
be extended beyond anti-terrorism to include peacemaking, 
regional development, and the struggle against the HIV/AIDS 
epidemic. An important step toward this would be for the United 
States and its allies to invite China as an observer to G-8 
meetings and eventually invite it to join the G-9. I was just 
at a meeting with the NATO School in Germany and we discussed 
China's joining of NATO in the next 10 years, like Russia. A 
Western embrace of China is the only way to develop a long-term 
and consistent overall strategy to prevent the further 
alienation of the Uighurs and the Turkic Muslim peoples of 
Central Asia.
    [The prepared statement of Mr. Rudelson appears in the 
appendix.]
    Mr. Wolf. Thanks very much. I will start. One issue that 
neither of you really touched on is the practice of religion in 
Xinjiang. On the trip that some of us made several weeks ago, 
the theme came through repeatedly that nationalism and the 
practice of religion must be one in the same. Could you comment 
on that and the linkage between the practice of Islam and 
splittism as defined by the authorities and what the 
implications of that are?
    Mr. Rudelson. The fear that the Chinese Government has is 
that Islam, essentially, causes Uighurs to be insulated and 
withdrawn among themselves and not participate within the 
Chinese state. And to a large extent, this is true. The 
government in 1985 allowed Uighurs to start practicing Islam to 
a very large extent and allowed mosque construction. I did my 
anthropological field work in an oasis called Turpan. There 
were over 3,000 mosques built in a period of about 5 years. So 
the government did not really see Islam as a threat until 
Tiananmen in 1989, and started to retract. Just as in Tibet, 
where religion is seen as a marker of identity, for many 
Uighurs, it is the same, especially Uighurs in the oases. Many 
Uighur intellectuals and scholars who moved to Urumqi, to get 
more of a secular education, see that secular education is the 
most important thing for themselves and for their people, 
because it is only by competing with the Han people and 
learning the Mandarin language that they can compete on a 
national level. So there is friction between intellectuals, for 
the most part, who are predominantly secular, and locals, who 
see Islam as being part of their heritage. The Chinese 
Government is fearful that Islam can become more 
fundamentalist. However, just as we in this county have 
religious schools, such as Catholic education where both 
secular education and religious education are taught at the 
same time, this can be developed and should be encouraged to 
develop in Xinjiang. But religion is very much a part of who 
the Uighurs are. Even those secular Uighurs will say that they 
are Muslim, even though they might not practice. I guess it is 
akin to Jews, with my own faith. Many Jewish people will say 
that they are Jews, even though they do not practice the 
religion. But Chinese see Islam and fear its power, and it does 
have a power to unify people in ways that China believes can 
get out of control.
    Mr. Wolf. Dolkun.
    Mr. Kamberi. Yes. You already brought out many points about 
Islam in the Autonomous Region. It has already become a part of 
the Uighurs daily life, and the culture and custom. The people, 
actually as Dr. Rudelson pointed out, a lot of intellectuals 
are not practicing, but they identify themselves as Islamic as 
one of the very important identities of the Uighur people, is 
seen as threatening to the Chinese Government.
    Mr. Rudelson. The interesting thing though is, it does not 
threaten the Chinese Government for the Hui people, or the 
Tungans as they are known in Xinjiang. Because the Chinese see 
that they are culturally closer to the Han peoples and they 
speak Mandarin. They do not speak a Turkic language; their 
language at home is not Arabic. So China sees them as being 
part of a Han cultural sphere, whereas, the Uighurs are 
completely on the outside of that, so that is what China sees 
as more of being part of a Central Asia sphere.
    Mr. Wolf. Thank you. John.
    Mr. Foarde. I wanted to let you pick up, Justin, on your 
points about road and rail development in far western Xinjiang 
splitting the Uighur nation, and get into that a little more 
deeply and tell us what you meant by that, please.
    Mr. Rudelson. When I first was in Xinjiang in 1985, I 
noticed that there were very significant differences between 
the Uighur people. Some would say it is just like the 
differences between New York, Los Angeles, and Texas. But there 
are strong differences between the Uighur people. So in my own 
research, what I found is that through history, while the 
Uighurs were part of an area within what is now Xinjiang, they 
were often drawn outward across borders, rather than focusing 
inward toward one another. So Uighurs in the far east of the 
region were more aligned with and worked with China in trade, 
than were, say the Uighurs in Kashgar with what is now 
Uzbekistan. Most scholars looking at the region, because there 
are so many high mountains, thought that the Uighurs focused 
inward. And indeed, politically, the Communist Chinese 
Government closed off a lot of borders so that the Uighurs were 
forced to focus inward. In 1985, China opened this region to 
international trade and tourism, and it started focusing 
Uighurs outward across the borders again. And so I started 
looking at whether this development and international 
development would essentially start splitting the Uighurs 
apart, allowing the Chinese Government to control them more 
effectively because of the difference in the Uighurs and the 
fissures that developed between them. This is a complex 
situation because while there are things that are drawing them 
apart, and drawing their focus across the borders, there are 
other things such as HIV/AIDS, and the ``Strike Hard'' 
initiatives and the clampdown in Islam, that focuses people 
together. So it will be a question in the next few years 
whether the Uighurs will really solidify, as their name really 
means, ``confederacy'' or a ``union,'' or whether the union 
will attenuate over certain geographic lines.
    Mr. Kamberi. I did not see that. I did not see that the 
Uighur in the future would be dividing because of natural 
division of the land. Natural division of land, of course 
creates different culture and art and, also linguistic dialect 
in the region. But right now, I do not see any big difference 
between the Southern Uighur and the Northern Uighur. They are 
all the same in terms of their cultural identity. And also 
their political identity, linguistic identity, and religion 
identity, it is the same. I do not see the split coming.
    Mr. Foarde. Interesting. Thank you. We spoke a little bit 
just a minute ago about levels of religious practice among 
Uighurs as Muslims. Are Uighurs allowed to make the Hajj 
pilgrimage? And if so, roughly how many go every year, and what 
is making those numbers either large or small?
    Mr. Kamberi. I do not have specific numbers on how many 
each year, but in terms of do they do the Hajj, yes, it is yes. 
It used to be more during the 1980s. The procedure has changed. 
Travel agents can organize, but recently up to 1997, especially 
after recent events, it is only with approval from government 
officials. Some of the private sector go to Hajj, only if they 
go to Central Asia first. But I do not have specific numbers.
    Mr. Rudelson. In the 1980s, it was around 2,000 or 3,000 a 
year. Usually people needed almost $6,000 to $12,000 to make 
the trip. Because they needed dollars, they sent out young 
family members out to the coastal cities, Shanghai, Beijing to 
trade money, so they would have the dollars and this would help 
the people on the Hajj. A very interesting aspect of the Hajj 
is, in the late 1980s--and I think this continued through the 
1990s--it was very important for certain local Communist 
officials to make the Hajj, because they would come back as a 
Hajji. Even though they did not believe in Islam, they would 
officiate at certain events and it was more of a pro forma. 
This is Uighur tradition as opposed to religion. And that 
separation for the Uighur Communist leaders still goes on 
today. I think the number of Hajjis has gone down to maybe 
fewer than 1,000 today.
    Mr. Kamberi. I would add only one thing and that is on the 
age. They only allow people over 50 years old and older, right 
now to go.
    Mr. Wolf. Thank you. Matt.
    Mr. Tuchow. I think earlier in your testimony you indicated 
that there were only 13 Uighurs who were involved with the 
Taliban. I am wondering if the numbers are really so low, why 
are the Chinese striking so hard?
    Mr. Rudelson. Well, the ``Strike Hard'' campaign started in 
1996. So it is sort of unrelated. But the ``Strike Hard'' 
campaign began when China could strike hard. It knew that there 
were incremental bombings, one or two a year. For instance, 
there was a bombing in Urumqi on Deng Xiaoping's funeral on the 
day and hour of his funeral. It showed that the Uighurs were 
not afraid to embarrass China. When it joined the Shanghai 
Five, it was allowed to do whatever it needed to do to control 
the Uighurs within the Xinjiang region, or Uighur elements, as 
well as in Kazakhstan and Kyrgyzstan where Uighurs were, 
separatist elements also handled by their governments. So the 
idea was that China could strike hard and none of the other 
Shanghai Five countries would say anything.
    As far as Uighurs in the Taliban, I had been looking for a 
good 4 months, trying to find the numbers and came up with 4 
Taliban. I then met an Israeli intelligence officer who is also 
a professor at Hebrew University, and he said that his count 
was 13. The Chinese have said that there are over 1,000 Uighur 
Taliban that have now infiltrated the rest of the Muslim 
communities throughout China. No one that I have talked to says 
that that is possible at all. It has kind of demonized the 
Uighur people. It has scared a lot of Uighurs. And I think that 
is the reason for striking hard, and also for saying that there 
are these contacts with al Qaeda and bin Laden and the Taliban, 
just to stifle people into not doing anything.
    Mr. Tuchow. Do you know what the numbers are on Uighur 
nationals who now are political prisoners, imprisoned for 
simply exercising their rights of speech or religion?
    Mr. Kamberi. I do not have a number because of the Chinese 
Government system. It is not allowed. When they arrest people, 
they cover it up and they never allow journalists to go to get 
statistics.
    Mr. Rudelson. The one we do know about is Rebiya Kadeer, 
who, of course, Dolkun mentioned, who is a very famous 
activist. A millionaire, a rags to riches story, who met with a 
Congressional staff delegation in Urumqi and was arrested 4 
years ago, and sentenced to 8 years for passing documents to 
her husband who is a dissident journalist living in Oklahoma. 
She is now the Mother Teresa or the Dalai Lama figure of the 
Uighur people. Because she started organizations for women--the 
Thousand Women Movement--helping impoverished women better 
themselves, women whose husbands left them, or whatever. When I 
was in Urumqi in 1995, I saw anti-heroin posters. She has a 7-
story department store--and had anti-heroin banners outside her 
building that she had put up herself. And this was the first 
time that I started understanding how profound this HIV problem 
was, through her.
    Mr. Kamberi. I have not finished my statement on this 
issue, actually. I say that we do not have official statistics 
from the Chinese side, but we have information from traders who 
cross the border to Central Asia who bring information. 
Especially at the time in 1995, there was an event that is 
unknown to the outside world because of the religious practices 
crackdown by the Chinese Government.
    Mr. Rudelson. Just to clarify, what happened in 1995, at 
least the Chinese explanation, is that so many people were 
praying in a mosque during the Kurban festival--the largest 
festival when Muslims go to Mecca to make the Hajj--that they 
were overflowing into the street, and were praying in the 
street and blocking traffic. When the police came to try to 
direct traffic, it became chaotic, and there was some 
resistance. And when they went to arrest the cleric, it started 
violence. That is at least the Chinese official description of 
what happened.
    Mr. Wolf. Thank you. Dave.
    Mr. Dettoni. Thanks for your testimony. In the last panel, 
one of the witnesses said that there is religious freedom in 
Tibet. I know that from my boss' journeys to Tibet, that there 
is a police officer or undercover agent in every seminary or 
every temple. So he is not here to answer for himself. And I am 
picking a fight with an empty seat. But nonetheless, my 
definition of freedom is a bit different. And this is not just 
to pick a fight. This leads into a question to you. How are the 
mosques in the Uighur areas; are there police officers, 
undercover security? How would you describe from your 
experiences freedom of religion? Are they being watched? Are 
there repercussions for practicing their faith?
    Mr. Kamberi. It is hard to define. There is no religious 
freedom in China. Of course, there is no religious freedom in 
the Autonomous Region. And it is because they only allow 
certain people to practice, especially in the government. After 
1990, if you work for the government, you are not allowed to 
practice religion. Even some kind of cultural form of religious 
practice is not allowed.
    Mr. Rudelson. In general, Uighur children are allowed to be 
trained in basic prayers up to the age of about 6. Then they 
are sent to secular schools. Most go for 5 years. Then at age 
11 education stops. This is what is causing a lot of the HIV 
problems. There is just nothing for a lot of kids to do except 
get high on glue or gasoline or shoot heroin.
    As far as mosques, as one of my scholar friends says, they 
are X-rated. If you are below the age of 18 years you are not 
allowed to enter a mosque. When you go in you will see a sign 
in Uighur that says if you are under 18 you are not allowed in. 
There is one school to train mullahs in all of Xinjiang. All of 
the mullahs, at least the ones at the famous mosques, are 
trained. And they know how to behave in order to continue as 
mullahs under the system.
    As far as the power of Islam. In 1990, I was in Turpan 
again, and I was at a wedding. There was lots of alcohol at the 
wedding, people dancing, men and women together. One individual 
got a little bit too drunk and attacked another guest at the 
wedding and killed him with a knife. The repercussion was that 
the mullah said, whoever had a wedding with alcohol and dancing 
in the future, they would refuse to bury that person's father 
and mother in a religious way and in a religious cemetery. So 
that was the start of really asserting that kind of power. The 
government, several weeks later, cracked down and read the 
mullah the riot act, that he had to perform religious funerals. 
He could not have that kind of power to make that decision.
    Most people who are retired, even if they are not 
religious, gravitate toward being religious. Being at the 
mosque five times a day is, in some ways, a social way of 
getting together and being together. For the government, they 
are not a threat. The elderly are considered fine, as far as 
their practice. So there is, to some degree, religious 
practices that are allowed--whether it is completely free, and 
there are a lot of strings attached--it is difficult to say. 
During that period from 6 to 18 years of age, they are not 
allowed to practice Islam at all, and those who do, and do it 
secretly can be arrested, and are arrested.
    Mr. Dettoni. But are there undercover surveillance officers 
in almost all the mosques? Are they being watched?
    Mr. Kamberi. Yes. The answer is yes. Religious freedom in 
the Uighur Autonomous Region is hindered since the Chinese 
Government studied how many mosques have been opened, how many 
mosques have been built. And every imam and mosque is governed 
by the government, and the imam himself is not well-educated in 
the Islamic religion. If you have more knowledge to interpret 
it deeply, you are not allowed. In the Chinese newspapers they 
say that they have religious freedom, you have open mosques in 
each city, people still go and pray. Yes, in terms of that it 
is limited practice, just like the Falun Gong.
    Mr. Rudelson. There is also a syncretic religion, which is 
interesting. There is a lot of Shamanistic practice that goes 
along with Islam. The use of fire in purification and 
cemeteries, and sometimes at night, you would go out and see 
people burning cotton in bottles, sending medicines to heaven, 
which kind of surprised me. You will see dead birds hanging in 
trees with money, something that is completely antithetical to 
Islam, yet practiced there.
    As far as the Public Security Bureau [PSB], there are a lot 
of informants, people that just see things and use things for 
their own strategic benefit within society. So you do not have 
to have the Public Security Bureau, people can inform on each 
other. Because after the Cultural Revolution, there is a lot of 
distrust among people even today.
    Mr. Wolf. Thanks. Anne Tsai.
    Ms. Tsai. Thank you for your testimony. I was just curious 
as to if there is any continuation of local grassroots 
activities to address public health issues such as what Rebiya 
Kadeer had done, or did that completely get shut down in the 
last few years? And also any types of NGO activities outside of 
the Red Cross addressing public health issues and other areas 
that NGO activity might be helpful in.
    Mr. Rudelson. In the public health area--that is what I 
have been looking at most extensively recently--Australia is 
doing an incredible amount of work in Xinjiang. There are a lot 
of Uighurs who emigrated to Australia because it is like 
Xinjiang, it has got a lot of desert, it is very far away from 
danger, and it is safe and peaceful and beautiful. So 
Australian Aid--AUSAid--is very strong there. The Australian 
Red Cross is also very strong there. And they are the major 
player right now in public health. Johns Hopkins University is 
doing some work, but it is very small, prevention trials. Yale 
University has a small clinic that treats pregnant Uighur 
women. As far as NGO and investment, Xinjiang is the lowest, or 
the last, ranked of all of the regions of China in terms of 
direct foreign investment.
    I am part of a project called the Xinjiang project at Johns 
Hopkins-SAIS [School of Advanced International Studies] and one 
of our economists found that in fact, China's Northwest 
Development Project is just really a slogan, that there really 
is not much development going on in Xinjiang at all. And in 
fact, she found that Xinjiang is falling apart economically, 
that a lot of the state farms are falling apart. And so there 
are a lot of Han who might be leaving soon to get back into the 
interior of China, which I assume, would make some Uighurs 
happy. But it is a difficult situation for them.
    The other situation I wanted to bring up is the question of 
the military. An Israeli scholar found that, in fact, China's 
military is not very strong in Xinjiang. Whenever we look in 
this area, the actual military situation is a complete shock to 
most of us working in this area. He found that the military 
there is composed of the young recruits, the weakest and 
smallest numbers of forces. Xinjiang is really seen as a place 
to absorb foreign forces. They will let them come across 
Xinjiang and then put up a stand in Gansu or Qinghai, or 
somewhere else. Xinjiang is not heavily defended so the 
``Strike Hard'' campaign is very similar to the Rodney King 
days of Los Angeles, where there is a rapid attack force that 
comes in and puts something down very hard and scares people 
tremendously so that they will not create further problems. And 
that is a very different way of seeing this region in terms of 
security and stability.
    Ms. Tsai. In terms of ``Strike Hard,'' does the Production 
and Construction Corps play a large role in that or is that 
mostly left to the PSB?
    Mr. Rudelson. The Production and Construction Corps are 
pretty much getting old. They are producing about one-third of 
the gross domestic product coming out of Xinjiang from the 
farms. But the farms themselves are having a lot of problems, 
very much like the state farms of the former Soviet Union, 
Russia today. But their function as a military force is not 
that strong at all.
    Ms. Tsai. Thank you. Dolkun, do you have anything to add to 
that?
    Mr. Kamberi. Yes, bing tuan [Xinjiang Production and 
Construction Corps] is controlling a lot of things. It might 
not seem as strong a military force, as Justin said. But if 
there is a war, yes, they have a very strong military because 
they have been training secretly. And also they control the 
economy of the vast Uighur Autonomous Region. Recently they 
wanted to reconstruct the bing tuan as a business corporation, 
to try to control the economy of the Uighur Autonomous Region. 
And also, I will point out that I do not see the Chinese going 
back, as Justin said, because of the failing economy. Recently 
we saw that another big project has started, the gas pipeline 
project, from Tarim Basin to Shanghai. It is a 4,000 kilometer 
pipeline and it is a $40 billion project. And China has decided 
to start that project. Many Uighur people see that project as 
resource exploitation, because they are not benefiting from it. 
The Uighur people are asking questions. Why did they build the 
pipeline just around the Tarim Basin, only benefiting the 10 
million people there? It would cost less and could have been 
built faster, and benefited the Uighurs too, instead of 
spending $40 billion to run a long line to Shanghai. So the 
Uighurs see that the Chinese Government is always trying to 
benefit the Chinese first and not the Uighurs. And this is a 
very serious problem right now.
    Mr. Wolf. OK. Well, thank you very much. We have pretty 
much come to the end. Does anyone have any final quick 
comments? Dolkun.
    Mr. Kamberi. I would like to suggest, if you can, as I said 
because the Central Asia Uighur culture, is a part of the 
overall culture and they have a long tradition of culture, we 
should preserve it. Preserve the culture. And I would suggest 
establishing a research institution. When I look at the 
University in that Autonomous Region, in the history 
department, there is no teaching of Central Asia history, 
Uighur history. And of course we can do something about that, 
and establish a department at the research institution.
    Mr. Wolf. Thank you. Justin.
    Mr. Rudelson. I think the issue of Rebiya Kadeer is very 
important. I see her as being a real dynamic force for the 
Uighur people. The way she organized her business, her 
education establishment in her department store, she sent 
several Uighurs to the United States, she helped thousands of 
women. Having her let out and having her come here, or stay in 
Xinjiang and be able to do good things, would be very important 
for the Uighur people.
    I think, in general, China really needs Xinjiang. It is a 
place for mineral extraction, for wealth, for oil and gas. 
China is profoundly in need of mineral wealth and will be 
trying to get a lot of mineral wealth from Russia and have it 
transfer across Xinjiang to the eastern part of China. So, the 
region is important. It is important to emphasize Xinjiang's 
development and development of the local people will have an 
impact on the Uighurs, not just on the Han that are coming in.
    I am extremely worried about the HIV/AIDS situation, which 
I think I made clear. I think it will have a tremendously 
devastating impact on the region if something is not done 
quickly. It must be done without anti-retroviral drugs, these 
drug cocktails. It has to focus on boosting the immune system 
through traditional Chinese medicine, traditional Uighur 
medicine, boosting nutrition of the Uighurs. There is mono-
cropping there so most Uighurs eat bread and tea as their main 
staples. All that needs to be changed. And then education, 
education, education to change the drug problems.
    Mr. Wolf. OK, well thank you very much. This has been very 
useful. It is a subject that is all too little addressed in the 
United States. I think we all know that this is one of the many 
reasons that the problems are so severe, because the outside 
world has not paid very much attention. RFA [Radio Free Asia] 
is there, there is a handful of scholars in the United States 
and in Europe looking at these issues. I hope we can, through 
this roundtable today, and through our report in October, at 
least help a little bit in sustaining U.S. attention on what is 
a very difficult problem.
    With that, thank you very much for helping us move a little 
bit in that direction as we prepare our report and try to put 
some recommendations together. If you want to follow up with 
any further thoughts, especially concrete ideas, as to how this 
Congressional-Executive Commission, with its recommendations to 
the Congress and to the President, may be able to do something 
that would help the every day life of Uighurs, feel free to get 
in touch with us. Thank you very much.
    [Whereupon, at 4:50 p.m., the hearing was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                                ------                                


               Prepared Statement of Bhuchung K. Tsering

                             june 10, 2002
    Thank you for the opportunity to talk about the situation in Tibet 
at this roundtable. I would like to focus on some recent developments 
in Tibet and to speculate on what they mean in terms of China's 
strategy toward Tibet. My hope is that this would be of some use to the 
Commission and its staff as you draft your recommendations to the 
Congress and the Administration on responding to the changing situation 
in Tibet.
    Since the Commission has been set up specifically to give 
recommendations to the U.S. Government to help improve human rights and 
support the development of the rule of law in China, I believe it 
should not hesitate in promoting ideas, which even require policy 
changes if it believes that is where the solution is.
    The United States needs to adopt a holistic approach toward the 
Tibetan issue. Attempts to improve the human rights situation needs to 
be incorporated with efforts to resolve the broader political problem 
in Tibet.
    The Chinese authorities have made a subtle change in their policy 
on Tibet. In addition to the policy of outright suppression of 
Tibetans, they have intensified their control through assimilation and 
incorporation of selective aspects of Tibetan life, including in the 
academic and economic fields.
    China seems to have realized that it is not in its interest to 
ignore the international interest in Tibet. Therefore, the Chinese 
authorities have chosen to release some Tibetan prisoners who they hope 
will help improve their international image. They are also undertaking 
economic development projects in Tibetan areas, which on the face of it 
are aimed for the welfare of the Tibetans but have the dangerous 
possibility of helping to dilute the distinct linguistic, cultural and 
religious identity of the Tibetan people.
    The Chinese authorities are using the tactic of providing access 
and economic incentives to governments, organizations and individuals 
to encourage them to be sympathetic to the Chinese perspective. China 
has also been attracting Western Tibet experts to visit Tibet and 
China, to participate in government-sponsored conferences, etc., all in 
an attempt to provide subtle legitimacy to their policy in Tibet. The 
silver lining in this development is that there are individuals and 
organizations, which are taking advantage of this change in Chinese 
attitude to undertake activities, which are of direct benefit to the 
Tibetan people.
                          release of prisoners
    To begin with the positive news, in the first 3 months of this year 
the Chinese authorities released three internationally known Tibetan 
political prisoners.
    On January 20, 2002 Ngawang Choephel, a Tibetan ethnomusicologist 
who was a Fulbright scholar, was released on medical parole after 
serving more than 6 years of his 18-year sentence on trumped up charges 
of espionage while documenting Tibetan performing arts tradition in 
Tibet.
    Ngawang Choephel's case had received the attention of many people 
in the United States, particularly the Congressional delegation from 
Vermont.
    In February 2002, Chadrel Rinpoche, the former abbot of Tashi 
Lhunpo Monastery and Head of the Search Committee for the reincarnation 
of the 10th Panchen Lama, was released from prison. Although we do not 
have exact information about his current whereabouts it is believed 
that he is in Shigatse. Chadrel Rinpoche's prison term had been 
completed and his release was expected.
    On March 31, 2002, Tanak Jigme Sangpo, Tibet's longest serving 
political prisoner, was released on medical parole in Lhasa. He had 
served 32 years out of his 41-year sentence. The 73-year-old Sangpo is 
currently staying in Lhasa with his niece. We have learned that Sangpo 
is not getting satisfactory medical treatment.
                   clampdown on popular tibetan lamas
    However, the above development does not seem to indicate that 
Chinese policy on Tibet has changed for the better. In recent months 
the Chinese authorities took actions to clamp down on certain Tibetans, 
individuals who may not be widely known internationally but who have 
been making tremendous contribution toward the welfare of the Tibetan 
people.
    In April 2002 a Tibetan religious teacher, Tenzin Delek Rinpoche 
(lay name: Ngawang Tashi), was arrested on suspicion of involvement in 
bomb explosions in Karze region of Kham in eastern Tibet (in present-
day Karze Tibetan Autonomous Prefecture in Sichuan province). The real 
reason for his arrest may have to do with his projects among the 
Tibetans, which made him a popular lama.
    Tenzin Delek Rinpoche supported local people in the reconstruction 
of various smaller monasteries and a nunnery, and he was involved in 
activities to provide homes and education for children from poor local 
families. The authorities refused him permission to build a school and 
an old people's home in one nomadic area. In the late 1990's, however, 
he successfully set up a school in Lithang for both Tibetan and Chinese 
children, mostly orphans, providing education to at least 130 pupils.
    Tenzin Delek Rinpoche is not the first one to suffer because of his 
work among the Tibetan people. In July 1999, a Tibetan scholar from 
Amdo (Tsolho Tibetan Autonomous Prefecture in present-day Qinghai), 
Gyaye Phuntsog, was sentenced to 6 years in prison (and reportedly 
released on medical parole) for the crime of ``damaging the stability 
of the nation.'' Gyaye Phuntsog had founded a school, funded partially 
by UNESCO, which caters for some of the region's poorest Tibetan 
families and focuses on the study of the Tibetan language.
    In October 1999 Gen Sonam Phuntsog, a well-known scholar and 
Tibetan language teacher in Kham in eastern Tibet (in present-day Karze 
Tibetan Autonomous Prefecture in Sichuan province), was arrested in 
what appears to be China's concern over his influence in the area and 
over his apparent loyalty to the Dalai Lama. At the time of his arrest 
he had been teaching more than a hundred monks at Dhargye monastery for 
6 years. Sonam Phuntsog was popular among Tibetans because he ran 
projects teaching Tibetan children about their religion as well as 
Tibetan language. He had also helped in the renovation of some 
monasteries in his region in the 1980's.
    In September 2001, Khenpo Jigme Phuntsog, abbot of the monastic 
complex of Larung Gar in eastern Tibet, was removed from the complex 
against his will and is currently being held somewhere in Chengdu.
    The monastic community known as Larung Gar near Serthar (in 
present-day Karze Tibetan Autonomous Prefecture in Sichuan province) 
had the largest concentration of monks and nuns anywhere on the Tibetan 
Plateau in recent years. In particular, the community attracted several 
thousand Chinese devotees.
    The latest news is the sentencing of Jigme Tenzin Rinpoche (known 
as ``Bangri'' Rinpoche) and his partner Nyima Choedron for charges 
including espionage and endangering State security.
    They had been running the popular Gyatso Children's Home in Lhasa, 
which had about 50 pupils between the age of 3 and 15, most of whom 
were orphans. The orphanage had been supported through private 
donations. Following their arrest the orphanage was closed down.
    The Chinese authorities' action against these popular spiritual 
leaders in Tibet can be attributed to the fact that they have been 
unable to gain the respect and trust of the Tibetan people.
      use of developmental programs to promote political objective
    China has also been using developmental activities in order to 
promote its overall political objectives in Tibet. Its Western Region 
Development Program includes the railway project in Tibet.
    The $3.3 billion railway project is said to be China's biggest 
investment in Tibet. While the railways may have economic benefit, it 
will also strengthen Beijing's political grip. ``The trains would allow 
quick deployment of troops to put down Tibetan protests like those in 
the late 1980's against Chinese rule and to guard the frontier with 
India, which fought a border war with China in 1962,'' according to a 
Western journalist who visited the construction area.
    Chinese President Jiang Zemin told the New York Times a year back 
the railway line was being constructed for political reasons. 
Similarly, China has made revisions to its regional national autonomy 
law of 1984 to say that the priorities of the central authorities 
regarding the control and economic development of ``autonomous'' areas 
would be implemented in accordance with a centralized plan. According 
to the revised version resource extraction and major infrastructure 
construction are to be the main priorities for minority nationality 
areas and development will be carried out under the ``unified plans'' 
of the central authorities and according to ``market demand.''
    The Chinese authorities have permitted modest development projects 
in Tibetan areas being implemented by some Western NGO's. In many 
cases, such projects seem to be benefiting the Tibetan people. The 
International Campaign for Tibet's position on development in Tibet is 
that all governments, NGO's and individuals undertaking projects in 
Tibetan areas should see that their projects directly benefit the 
Tibetan people and do not encourage the further dilution of the Tibetan 
identity. They should also be carried out in a manner that reflects the 
spirit of the priorities outlined in the Tibetan Government-in-Exile's 
guidelines. Dharamsala currently encourages developmental projects in 
the health and educational sector, particularly in rural areas. Similar 
guidelines were incorporated in the Tibetan Policy Act, a comprehensive 
legislation that is before the Congress.
                            recommendations
    The human rights violation in Tibet is symptomatic of a bigger 
political problem. Unless steps are taken to adequately address the 
fundamental issue, mere release of a few prisoners or the 
implementation of development projects in Tibetan areas will not 
provide any lasting solution. Given this situation, our recommendations 
to the Commission are the following:

    (1) The Commission should ask the United States government to 
consistently and proactively work for encouraging a negotiated 
settlement to the Tibetan problem between His Holiness the Dalai Lama 
and the Chinese leadership. The Dalai Lama is calling for a genuine 
autonomy for Tibet. The U.S. Government should formulate a Tibet policy 
based on all Tibetan areas, not just the Tibet Autonomous Region, in 
recognition of historical fact, and current demographic reality.
    (2) The Commission should recommend that the Congress pass the 
Tibetan Policy Act in light of its programmatic and political 
significance.
    (3) The Commission should ask the Administration to have a 
coordinated approach on Tibet, involving all relevant departments, 
including Labor, Commerce and State. The Special Coordinator for 
Tibetan Issues at the Department of State should be fully relied upon, 
and should be involved in any aspects of US-China relations that could 
impact Tibet, including issues of economic consequence.
    (4) The US government should work multilaterally in developing a 
united Tibet policy, including at the U.N. and other regional and 
international forums.
    (5) The Administration, Commerce in particular, should not promote 
any U.S. corporate involvement in projects or investments, such as the 
railroad, in Tibetan areas that are contrary to the interests of the 
Tibetan peoples. The Administration should consider drawing up 
guidelines on this and could look to those formulated by the Congress 
in the Tibetan Policy Act as well as by the Tibetan Government-in-Exile 
for the Tibetan perspective on economic development.
    (6) The staff of the Commission should undertake a trip to the 
Tibetan refugee community in India, Nepal and Bhutan, similar to the 
trip that they took to Tibet. This will enable the staff to gain 
information on the situation of the Tibetans in exile, the working of 
the democratic Administration in Dharamsala, the thinking of the 
Tibetan leadership in exile, information all of which will be useful as 
you continue your dialog with Tibetan and Chinese leaders inside Tibet.
    (7) We endorse the recommendations of the U.S. Commission on 
International Religious Freedom contained in its third annual report 
released in May this year. The Commission recommended that the U.S. 
Congress should extend an invitation to the Dalai Lama to address a 
Joint Meeting of Congress; that the U.S. Government should endeavor to 
establish an official U.S. Government presence in the Tibetan capital, 
Lhasa; and that the United States should urge the Chinese government to 
provide access to religious persons imprisoned, detained or under house 
arrest in Tibet.
                                 ______
                                 

                 Prepared Statement of Elliot Sperling

                             june 10, 2002
    I am grateful to the Congressional-Executive Commission on China 
for affording me this opportunity to appear before you. Over the course 
of many years I have been engaged in the study of Tibet's history and 
Tibet's relations with China, both historical and contemporary. I am 
presently the chair of the Department of Central Eurasian Studies at 
Indiana University and I have served as a member of the Secretary of 
State's Advisory Committee on Religious Freedom Abroad (1996-1999).
    The historical perceptions that underlie modern Chinese policies 
toward Tibet are relatively clear: it is the position of the People's 
Republic of China that Tibet became an integral part of China in the 
13th century; that this sovereignty over Tibet was claimed by all 
subsequent dynastic rulers; and that inasmuch as China has consistently 
been a multi-national state, the fact that two of the three dynasties 
involved in this rule were established by Mongols and Manchus has no 
bearing on the question of Chinese sovereignty. With the collapse in 
1911 of the last imperial dynasty, the Qing dynasty of Manchu rulers, 
Chinese claims were taken up by the Republic of China and in 1949 by 
the PRC, which was able to fully implement them. In May, 1951, 
following military clashes that left Tibet with no real defense, the 
central government of China concluded an ``Agreement on Measures for 
the Peaceful Liberation of Tibet'' with the government of the Dalai 
Lama that formalized Tibet's incorporation into the PRC.
    This account of Tibet's history, an emotional and nationalistic 
perception of Tibet as a centuries-old ``integral part of China,'' is 
used to introduce almost all official Chinese polemics and arguments 
about Tibet and its history, ancient and modern, and underpins China's 
assertions about its place in Tibet. Suffice it to say, outside the 
PRC, China's claim to continual sovereignty over Tibet from the 13th 
century on are often disputed; and the existence of a de facto 
independent Tibetan government under the Dalai Lama prior to 1951 is 
often adduced to contradict that claim. Since the establishment of the 
PRC the emotional element inherent in China's claim has been 
significantly nourished by the ideological imperatives to be found in 
the writings of Marx, Lenin, Stalin and Mao. The view derived from 
their ideas holds Tibet's integration into China to be part of the 
inevitable workings of History, as nations and peoples inexorably move 
together. This is, of course, an idea that is now rarely, if ever, 
overtly invoked or even seriously considered. It is sustained by 
inertia as much as anything else and as such has served to solidify a 
dogmatic attitude toward Tibet. None of this is meant to deny that 
Tibet also has a marked strategic significance for the PRC. It occupies 
a sensitive border area and thus, out of concern for stability 
(including stability in other areas of the PRC that are potentially 
restive), the Chinese government has clearly felt a need to integrate 
it as closely as possible with the rest of the country. To that end 
Chinese migration into the area is significant in the development of an 
economy-albeit a Chinese-dominated one-that binds Tibet ever closer to 
China. Be that as it may, in stating its case China has never based its 
claim to sovereignty over Tibet on military or security concerns. It 
has based it squarely on the historical argument.
    The ideological considerations that I have described have exerted 
an influence on the situation that is sometimes poorly perceived, 
particularly when proposals for bridging the positions of the Chinese 
government and the Tibetan government-in-exile are considered. On 
several occasions the latter has put forward propositions for a special 
status or condition for Tibetan areas within the PRC on the basis of 
the distinctive nationality of Tibetans. These have been rejected for 
reasons that can only be understood from an ideological perspective. 
For China the great cultural and national differences between Chinese 
and Tibetans cannot be a basis for special treatment within the PRC, 
since these distinctions are in theory defined as superficial and 
ephemeral, unlike the profound differences that China's ideological 
theorists recognize between the social and economic systems in the PRC 
proper and Hong Kong (or between the systems in the PRC and on Taiwan, 
for that matter). Not surprisingly, the PRC rejects such propositions 
(including proposals to lump all Tibetans in the PRC into one large, 
Tibetan autonomous unit) since they are rooted in national distinctions 
rather than in differences in social and economic development. 
Moreover, moves to increase Tibetan political autonomy, which would 
work against the increasing amalgation of the Tibetans with the other 
peoples in the PRC, go against the Marxist sense of History's 
direction; they are perceived by China to be ``reactionary'' in a very 
basic way. In essence then, the Tibetan question is settled as far as 
the PRC is concerned. The perception that the PRC has been 
unforthcoming in offering creative solutions to the impasse that has 
developed between it and the Dalai Lama's government in exile is 
largely rooted in this stance. China is willing to bring in amenable 
exile elements but sees no reason to do so other than on its own terms.
    But for Tibetans opposed to Chinese rule the Tibet issue remains a 
nationalist issue. This fact has been elided, by both the U.S. 
Government and the Dalai Lama's government-in-exile. For the U.S. 
Government, which has never recognized Tibet's independence, support 
for Tibet is largely limited to political, human rights, and cultural 
issues, which are not the crux of what Tibetan nationalist agitation is 
aiming at. The Dalai Lama, through the Tibetan government-in-exile, has 
willingly discarded a policy of seeking independence for Tibet in hopes 
of reaching an accommodation with China that would allow Tibet internal 
autonomy and preserve Tibetan culture. These approaches are 
problematic, but both have been tied to calls for direct negotiations 
between the Dalai Lama and the Chinese government. Indeed, over a 
period of many years, the Dalai Lama and the Tibetan government-in-
exile have focused much energy on seeking to have third parties 
(including the U.S.) make clear to China that the Dalai Lama does not 
seek Tibet's independence, so that negotiations might commence between 
China and the Tibetan government-in-exile. However, China is well aware 
of the Dalai Lama's stand; it simply sees no reason to deal with him in 
order to resolve the Tibet issue.
    As concerns the position of the United States, there has been a 
certain myopia inherent in its perception. To wit, hoping that improved 
political or material circumstances will alleviate Tibetan discontent 
ignores a well-known dynamic. When a highly authoritarian State begins 
to liberalize it is then that dissent spills over; we've seen this in 
many situations (the lack of understanding of this process is no doubt 
why so many Americans were perplexed about Gorbachev's lack of 
popularity in the waning days of the USSR). As conditions improved in 
Tibet, during the early part of Deng Xioaping's liberalizing break from 
the Maoist past, we saw more, not less, discontent, because at heart 
the core of the issue in Tibet is one of Tibetan national aspirations, 
not material conditions.
    The preservation of Tibetan culture as a U.S. foreign policy goal 
also presents some problems. Tibetan culture, like any other, is 
dynamic. Calling for its ``preservation'' automatically brings forth 
the need for it to be defined, and this in turn leads to it being 
viewed as a stuffed-and-mounted item fit for a museum. In fact, for 
most people calling for the ``preservation'' of Tibetan culture, that 
culture is largely equated with clerical and monastic life, or with 
what might be termed folk culture. Tibetan culture does not need to be 
frozen in time, but Tibetan cultural life needs to be protected from 
measures that repress literary and artistic expression. In Tibet today 
secular writers and artists-and they do exist-working with modern 
forms, are every bit a part of the Tibetan cultural scene.
    The focus on bringing China into negotiations with the Dalai Lama's 
government-in-exile has also been mired in misperceptions. For its part 
the Tibetan government-in-exile has often acted as if the sole obstacle 
to talks was China's failure to understand that the Dalai Lama did not 
advocate Tibetan independence. To that end, the government-in-exile 
would often, as noted above, urge third parties to communicate to China 
that the Dalai Lama sincerely sought a solution to the issue that would 
leave Tibet within the PRC. However, with the simple goal of buying 
time, China would decry the manner in which the Dalai Lama rejected 
independence, demanding certain other concessions (e.g., recognition of 
China's sovereignty over Taiwan) or displays of greater sincerity, 
etc., none of which have been sufficient to meet with Chinese approval. 
Though he has tried to comply, the Dalai Lama has, as a result, 
actually become a significant actor in a strategy of delegitimizing 
support for Tibetan independence. This has not made negotiations 
imminent by any means, but it has undermined the position of Tibetan 
activists in exile and inside Tibet agitating for Tibetan independence.
    What has become clear (even, of late, to members of the government-
in-exile) in all this, is the fact that China's strategy is to look 
toward a resolution of the Tibet issue via the death of the Dalai Lama. 
Hence the tactic of buying time, which brings us to the ongoing 
controversy over the Panchen Lama, the incarnate hierarch generally 
considered second to the Dalai Lama within the Dge-lugs-pa sect of 
Tibetan Buddhism (the sect of the Dalai Lamas). Chinese moves here have 
been quite cynical: they involved the Communist-led government of an 
officially atheistic country in the mission to discover the true 
reincarnation of the Panchen Lama, who, in turn, would normally 
recognize and enthrone the next Dalai Lama. What this clearly implies, 
of course, is that the next Dalai Lama will be chosen, groomed and 
educated in a manner according with PRC needs and PRC control. The 
result has been the recognition in 1995 of one child (now held 
incommunicado) by the Dalai Lama and another by the PRC authorities. 
The latter lives in Beijing, with all the trappings of a Panchen Lama, 
but is not accepted by many, if not most, Tibetans. Nevertheless, all 
of this points to a sense, on the part of the Chinese government, that 
whatever the inconveniences, China is capable of forging ahead in 
Tibetan matters without the cooperation of the Dalai Lama; if the Dalai 
Lama wishes to acquiesce and assume the ceremonial place that China is 
willing to grant him, well and good. Otherwise it is of little 
consequence to Chinese policies that he is not on board.
    U.S. policy in pushing for negotiations between the Dalai Lama and 
the Chinese government has largely followed the lead of the Tibetan 
government-in-exile and seems not to be based on a clear-headed and 
independent analysis of the situation. It does not significantly 
reflected an understanding of China's decision to write the Dalai Lama 
out of the picture. It is time to acknowledge that this indeed is the 
step China has taken. Up through the end of the previous 
administration, the Office of the Special Coordinator for Tibetan 
Affairs proceeded in its work on the assumption that negotiations 
between China and the Dalai Lama were feasible if China clearly 
understood the Dalai Lama's rejection of Tibetan independence. As 
noted, activity over the possibility of negotiations has simply been a 
means for letting time pass until the present Dalai Lama is out of the 
picture.
    At the same time, Tibet remains a focus of attention for several 
other reasons as well. As indicated above, the U.S. has oft-stated and 
well-justified human rights concerns with regard to Tibet. There is no 
doubt that imprisonment for dissenting political expression (most 
commonly with regard to Tibetan independence) and State pressure on 
religion, where there is a perception of a threat to State interests, 
remain serious matters. There is often an overlap between these 
concerns, as, for example, when loyalty to the Dalai Lama is at issue. 
Most recently Tibetan areas within the PRC have witnessed increasing 
restrictions on the activities of certain religious centers and 
religious figures (e.g., the 2001 closure and expulsions at Gser-thar).
    Over the last 2 years China has embarked on a project designed to 
further the economic and social integration of the PRC's western 
regions with the rest of the country. This project, the ``Great Western 
Development Initiative (Xibu da kaifa . . .),'' has its own 
implications for Tibet. It is important to note that while the project 
does seek to address the stark imbalance in development that 
characterizes the differences between areas such as Tibet and the 
wealthy coastal regions in eastern China, it also has the potential for 
spurring Chinese migration into Tibet and further Sinicization there. 
Given that one of the elements in this enterprise is the construction 
of a railway link to Lhasa, the Tibetan capital, this project could 
greatly alter the situation in Tibet. And given the nationalism at the 
core of Tibetan political activism, this project may well exacerbate 
tensions, particularly in Lhasa and other urban areas, where Chinese 
residents are an ever-growing majority of the population.
    Ultimately U.S. policy must be based on what the actual facts about 
Tibet are, not what we might like them to be. These include the fact 
that the Tibet issue is at its core a nationalist issue, not one 
centered around the improvement of material conditions; and the fact 
that Chinese policy is not to seek a compromise with the Dalai Lama, 
but to await his death and install a new Chinese-educated Dalai Lama. 
China's perception and handling of dissent in Tibet continue to be 
characterized by serious human rights violations. Until such time as 
China can deal with Tibetan dissent-nationalist, religious, cultural, 
etc.-in a manner commensurate with international norms of respect for 
human rights, Tibet will be the focus of visible international concerns 
and demonstrations.
                                 ______
                                 

                Prepared Statement of Arthur N. Holcombe

                             june 10, 2002
    I am pleased to have this opportunity to speak to you today about 
the current situation in Tibet. Tibet remains a contentious issue in 
the US, and one can approach the subject from many perspectives. As the 
former Resident Representative of the U.N. Development Program in China 
during the 1990's and the President of the Tibet Poverty Alleviation 
Fund since February 1998, I have been engaged in development work in 
Tibet since 1992. This has provided me with certain perspectives which 
I would like to share on current economic and social trends there, and 
on international assistance being provided to help improve the lives of 
average Tibetans.
    The Chinese Government reports that GDP in the Tibet autonomous 
Region has expanded at an average annual rate of about 11.9 percent 
since 1992, and that this is among the fastest growth in any Province 
of China during this period. It also reports of progress being made to 
develop main transport routes, expand electric power production, 
upgrade telecommunications infrastructure and speed up of municipal 
construction in major cities and towns. It also highlights the growth 
of tourist numbers and earnings, and the expanding output in the 
productive sectors, particularly commercial agriculture and minerals. 
It also points to the progress in establishing basic health services 
and education reaching most the population since 1959.
    The Central Government is providing special financial and residence 
liberalization incentives to attract outside entrepreneurs and 
semiskilled workers to take advantage of economic reforms taking place 
in Tibet, and to help force the pace of private sector investment and 
growth. At the same time it is providing about 95 percent of Tibet's 
capital and recurrent budgets, about the equivalent of $180 million 
annually, to help compensate for the widespread local poverty and lack 
of local revenue, and to ensure continuing economic and social 
advancement. Most recently, the Central Government has been publicizing 
its Western Development Campaign, which it indicates should help to 
promote local development, welfare and economic stability among local 
ethnic populations in Tibet and other Western Provinces, while helping 
to develop their gas, oil and other natural resources of overall 
national importance. In Tibet, the first big project under this 
Campaign is the Qinghai to Lhasa railway link at an estimated cost of 
20 billion RMB.
    Rapid growth in Tibet has improved living conditions, particularly 
for Tibetans and migrant Han and Hui Muslim people living in the urban 
areas, and along main transport routes. However, it is important to 
understand the distortions created by the present urban oriented market 
economy growth taking place in Tibet, and the implications of such 
urban orientation for most of the Tibetan population still living in 
rural areas and depending on traditional agricultural and livestock 
pursuits.
                   what are some of the distortions?
    First, Tibet's rapid employment and income growth has been 
primarily in the modern urban sector, and has been driven by a dynamic, 
even cut throat, private sector in which Han and Hui Muslim populations 
have been dominant. It has included Han farming populations that have 
been instrumental in the development of a major peri-urban green house 
agriculture that has sprung up around main urban areas. This urban 
oriented growth has contributed to rapidly increasing income disparity 
between urban and rural areas, and between Han and Tibetan populations, 
as most Tibetans still depend for their livelihoods on relatively low 
productivity subsistence agriculture and animal husbandry in rural 
areas. This is acknowledged by the Government which estimated average 
per capita family income in urban areas of Tibet to be the equivalent 
of $606 in 1996, in comparison to only $117 in rural areas, and growing 
at about 5 times the rate in rural areas.
    Second, Government investment since the mid 1980's has given 
priority to the development of infrastructure supporting economic 
reforms and opening up in urban areas. This has resulted in inadequate 
funds being available for rural economic and social infrastructure, 
including rural credit, improved basic health services and education 
and vocational skills training. Because Tibetans have not been provided 
with opportunities to learn modern skills, the Government has found it 
expedient to encourage increasing numbers of migrants with the skills 
needed for its investment projects. Most rural Tibetan children today 
don't advance beyond primary schooling, and rural Tibetan families tend 
to underutilize existing basic health services because of their long 
distance from villages, their high costs or the low quality of health 
care being provided.
    Third, the economic reforms and opening up have made it more 
difficult for traditional Tibetan urban enterprises to compete with 
better funded, more experienced and lower cost Han managed enterprises 
in urban areas. There is growing evidence of Han enterprises, which now 
constitute about 70 percent of all enterprises in Lhasa Municipality, 
squeezing out Tibetan enterprises even in traditional Tibetan product 
areas such as Tibetan clothing, furniture, painting, clothing, 
restaurants and dry goods and food retailing. In Lhasa today, there are 
about 340 officially registered Han enterprises in the ``handicraft'' 
sector, and only 28 Tibetan enterprises. Moreover, with the opening up 
of Tibet to the outside, Nepalese entrepreneurs in Tibet have recently 
been able to import high quality traditional jewelry and dominate the 
local tourist trade in this area, undermining traditional Tibetan 
artisan production.
    Fourth, urban construction technologies and practices in Tibet have 
advanced to modern earthworks, reinforced concrete and glass designs 
and complicated construction machinery that are beyond the traditional 
construction experience and practices of existing Tibetan construction 
workers. A result is that most transport and urban infrastructure today 
is built and maintained by outside, more highly qualified workers.
    Fifth, Tibetan youth in rural areas are increasingly being 
attracted to the urban areas with their higher paying employment 
opportunities and more comfortable living conditions -but without the 
skills needed to secure steady, well remunerated work. A consequence is 
that they are increasingly getting into crime and other unlawful 
activity. To some extent this problem is exacerbated by the lack of 
business and vocational skills training facilities in Lhasa and other 
urban areas to prepare urban Tibetan and Han youth for available jobs 
in the modern sector.
    Economic and social policies in Tibet are basically similar to 
those set by the Central Chinese Communist Party and Government for all 
Provinces of China. Thus, for example, Tibet has social policies that 
call for:

    <bullet> elimination of absolute poverty among most disadvantaged 
populations in most resource deficient areas;
    <bullet> universal access to basic health care, reinforced by a 
Community Medical System health insurance program;
    <bullet> in rural areas, replacement of all 2 year community 
primary schools with 6 year State primary schools, and by 2003, achieve 
6 years of primary education for all rural primary school aged 
children, and 9 years in urban areas;
    <bullet> introduction of vocational skills curricula initially in 
1000 pilot primary and middle schools located in 21 counties;
    <bullet> winter village housing in proximity to health clinics and 
primary schooling for all Nomads that presently don't have it by 2005.

    It is hard to fault these policies, as they focus on improving the 
human capacities and living conditions of the Tibetan ethnic population 
in Tibet. The basic problem is that with the Central Government 
development priority in Tibet being given to investment in urban 
infrastructure supporting economic reforms, there hasn't been enough 
money available to implement these laudable policies. Our concern is 
that the Central and TAR Governments must allocate sufficient funds to 
upgrade rural health and education services and to greatly expand 
vocational skills training for Tibetans in rural and urban areas. 
Unless they do, Tibetans will continue to be hurt rather than be helped 
by the continued expansion of Tibet's market economy, and the new 
railway to Tibet will only intensify existing migratory trends, 
exacerbate ethnic income disparities and further marginalize Tibetans 
in traditional economic pursuits.
    To in part compensate for the limited investment in rural services, 
the Government of the Tibet Autonomous Region has encouraged 
international, bilateral and non-governmental organization donors to 
support rurally oriented programs of direct benefit to Tibetan 
communities. These have been largely in the basic health, education and 
water resource development sectors, although some support to household 
agriculture and livestock activities and vocational skills training has 
also been provided. This assistance has been largely concentrated in 
open rural counties around main municipal areas, and in the Qomolangma 
Nature Preserve located in Southwest Tibet along the Nepalese border. 
There have been some recent exceptions, including with Canadian CIDA 
and our Tibet Poverty Alleviation Fund which have been encouraged to 
work in closed counties of Nakchu Prefecture. I have attached to my 
statement a partial summary of recent external assistance to Tibet, 
which shows these overall patterns.
    On behalf of TPAF, I had a meeting in April 1998 with Mr. Guo 
Jinlong, the present TAR Party Secretary, at the time we were 
developing the outlines of our assistance in Lhoka and Nakchu 
Prefectures. He urged us to do everything we could to help poor Tibetan 
households to participate in the expanding market economy in order to 
benefit from the increased income and other benefits it offered. He 
also indicated frankly that in Nakchu Prefecture the Government had not 
succeeded in getting nomad households to participate more actively in 
Tibet's cash economy. He indicated that the TAR Government would be 
most interested to support any programs TPAF could develop that helped 
to integrate nomads more closely with Nakchu's small, but expanding, 
modern sector.
    In this spirit, TPAF has given emphasis in its programming to the 
provision of small loans to rural Tibetan households for investment in 
new income generating activities, to rural and urban employable skills 
training, to Tibetan enterprise support and development, and to reform 
of rural education to include basic employable skills curricula. These 
and other TPAF project activities are generally implemented jointly 
with Tibetan staff employed at lower levels of Government. We believe 
this helps to strengthen local capacity to continue implementation of 
project activities after termination of our assistance. Our projects 
are also designed to demonstrate ways Government and other donors can 
enhance their support to Tibetan participation in the market economy 
and modern sector in the future.
    Other US NGO's have also been able to collaborate effectively with 
the TAR Government and implement programs that help to improve basic 
health and other human services of benefit to Tibetan communities. 
While we all would like to see a reorientation of Central Government 
and TAR resource allocations to be of greater direct benefit to Tibetan 
families and communities, we believe that US NGO's have been able to 
help improve working and living conditions for Tibetans in Tibet. We 
also believe that stepped up US Government support to US NGO's 
prioritizing Tibetan human development helps to signal the values and 
social development priorities that we as Americans believe need to be 
given higher priority in Tibet.
    Thank you.

                Major Donor Assistance to Tibet 1999-2002
------------------------------------------------------------------------
       Donor organization         Sector of activity     Observations
------------------------------------------------------------------------
Australia.......................  (1) Rural Health    (1) Implemented by
                                   Care, Water         Australian Red
                                   Supply              Cross.
                                   Development
                                   (Shigatse).
                                  (2) Support to IDD
                                   Elimination
                                   Campaign.
                                  (3) HIV/AIDS         (3) To commence
                                   Control (Lhasa      in 2002.
                                   Municipality).
------------------------------------------------------------------------
Belgium.........................  (1) Training in     Implemented by
                                   essential drugs.    Medicins Sans
                                                       Frontiers.
                                  (2) R&D in Kashin-
                                   Beck Big Bone
                                   Disease.
------------------------------------------------------------------------
Canada..........................  (1) Mixed farming
                                   and Nomadic
                                   Livestock
                                   Development,
                                   Reproductive
                                   Health, and
                                   Environmental
                                   Protection (Lhoka
                                   and Nakchu
                                   Prefectures).
                                  (2) Many small      (2) Implemented by
                                   Canada Fund         local
                                   projects.           governments.
------------------------------------------------------------------------
European Union..................  (1) Irrigated       (1) Originally
                                   Agriculture,        developed and
                                   Health and          approved in mid
                                   Education           1992.
                                   Development
                                   (Panam County,
                                   Shigatse
                                   Prefecture).
                                  (2) Vocational      (2) Implemented by
                                   Education           the Tibet Poverty
                                   Curriculum          Alleviation Fund
                                   Development in      during 1999.
                                   Four Rural
                                   Vocational
                                   Training Centers.
------------------------------------------------------------------------
Germany.........................  (1) Rehabilitation
                                   of small rural
                                   hydropower
                                   Stations (Lhasa,
                                   Lhoka and Lingzhi
                                   Prefectures ).
                                  (2) Vocational
                                   Skills Training
                                   (Lhasa
                                   Municipality and
                                   elsewhere).
------------------------------------------------------------------------
Italy...........................  Construction of     Implemented by
                                   hospital and        Italian NGO
                                   primary schools.    Associazione per
                                                       la Solidarieta
                                                       Internazionale in
                                                       Asia (ASIA).
------------------------------------------------------------------------
Netherlands.....................  (1) Pasture         (1) Implemented by
                                   Rehabilitation,     TPAF.
                                   Village Wells
                                   Development,
                                   Midwife Training,
                                   Urban Skills
                                   Training.
                                  (2) Sustainable     (2) Implemented by
                                   Community           The Mountain
                                   Development in      Institute.
                                   Qomolangma Nature
                                   Preserve.
                                  (3) Water Supply..  (3) Implemented by
                                                       ASIA (Italian
                                                       NGO).
------------------------------------------------------------------------
New Zealand.....................  Poverty             Implemented by TAR
                                   Alleviation in      and Lhoka
                                   Lhoka Prefecture.   Prefecture
                                                       Governments.
------------------------------------------------------------------------
Norway..........................  Preventive Health   Implemented by
                                   Care--Kashin-Beck   Medicins Sans
                                   (big bone)          Frontiers.
                                   disease.
------------------------------------------------------------------------
United States...................  (1) Health and      (1) Implemented
                                   Nutrition.          TERMA Foundation.
                                  (2)                 (2) Implemented by
                                   Entrepreneurship    The Mountain
                                   Development.        Institute.
                                  (3) Improved Eye    (3) SEVA.
                                   Care.
                                  (4) Education and   (4) Implemented by
                                   Training.           Tibet Fund.
------------------------------------------------------------------------
UNDP............................  (1) Integrated      (1) Implemented by
                                   Rural Development-  national and
                                   QNP area.           local government
                                                       units.
                                  (2) Improved         (2) Financed by
                                   design of Tibetan   the Government of
                                   Artisan jewelry     Finland
                                   and other           Observations.
                                   products.
------------------------------------------------------------------------
UNICEF..........................  (1) Basic Health    Implemented by
                                   and Nutrition.      national,
                                                       regional and
                                                       local government
                                                       units.
                                  (2) Primary
                                   Education.
                                  (3) Microfinance
                                   for Women.
------------------------------------------------------------------------
United Kingdom..................  Rural Health Care,  Implemented by
                                   Education and       Save the
                                   Water Supply        Children, UK.
                                   (Panam County,
                                   Shigatse Pref.).
------------------------------------------------------------------------
WHO.............................  (1) Workshops on    Implemented by WHO
                                   health education    and TAR Health
                                   and printing of     Bureau.
                                   health materials.
                                  (2) Cold chain and
                                   safe injection
                                   project.
------------------------------------------------------------------------
Ford Foundation (USA)...........  (1) Reproductive    Implemented by
                                   Health.             TPAF.
                                  (2) Vocational      Implemented by
                                   Skills              TPAF.
                                   Development
                                   (Nakchu
                                   Municipality).
                                  (3) Enterprise      Implemented by The
                                   Development.        Mountain
                                                       Institute.
------------------------------------------------------------------------
Future Generations (USA)........  Primary Health      Located in
                                   Care, other.        Qomolangma Nature
                                                       Preserve (South
                                                       West Tibet).
------------------------------------------------------------------------
Kadoorie Charitable Foundation    (1) Microfinance,   (1) Implemented by
 (Hong Kong).                      Reproductive        TPAF.
                                   Health Training,
                                   Urban and Rural
                                   Skills Dev't.
                                  (2) Child           (2) Implemented by
                                   Nutrition.          TERMA Foundation.
                                  (3) Small Business  (3) Implemented by
                                   Development.        The Mountain
                                                       Institute.
------------------------------------------------------------------------
SEVA (USA)......................  Rural Eye Care....  US Government
                                                       Funding.
------------------------------------------------------------------------
Swiss Red Cross.................  Rural Health Care.  Implemented with
                                                       and by Shigatse
                                                       Prefecture.
------------------------------------------------------------------------
The Mountain Institute (USA)....  (1) Sustainable     (1) Netherlands
                                   Community           and US Government
                                   Development         Funding.
                                   Qomolangma Nature
                                   Preserve (South
                                   West Tibet).
                                  (2) Assistance in   (2) Ford
                                   small enterprise    Foundation
                                   development.        funding and
                                                       other.
------------------------------------------------------------------------
Tibet Poverty Alleviation Fund    (1) Small loans to  (1) Funded by
 (USA).                            abut 1,000          Kadoorie
                                   families in         Charitable
                                   Nakchu and Lhoka    Foundations
                                   Prefectures).       (KCF).
                                  (2) Development of  (2) Funded by Ford
                                   TAR Safe            Foundation.
                                   Motherhood
                                   Strategy,
                                   township doctor
                                   and village
                                   midwife training.
                                  (3) Rural and       (3) Funded by KCF,
                                   Urban Vocational    Dutch Government,
                                   Skills Training.    Bridge Fund.
                                  (4) Introduction    (4) Funded by
                                   of Vocational       anonymous US
                                   Curricula in        foundation.
                                   Pilot Primary and
                                   Middle Schools of
                                   21 counties.
                                  (5) Clean water     (5) Funded by
                                   supply in 14        Dutch Government.
                                   villages (Nakchu
                                   Prefecture).
                                  (6) Tibetan         (6) Funded by KCF,
                                   Artisan             Bridge Fund.
                                   Enterprise
                                   Development.
------------------------------------------------------------------------
The TERMA Foundation (USA)......  Child Nutrition,    US Government
                                   Maternal and        Funding and
                                   Child Health,       other.
                                   Tibetan Medicine,
                                   TB, and Rickets
                                   Prevention.
------------------------------------------------------------------------
Tibet Heritage Fund.............  Preservation of     Implemented with
                                   Old Lhasa City      Lhasa Municipal
                                   area.               Government
                                                       (Terminated by
                                                       TAR Government in
                                                       2000).
------------------------------------------------------------------------
Trace Foundation (USA)..........  (1) Technical       (1) Implemented by
                                   Training for        Tibet Heritage
                                   Restoration and     Fund.
                                   Rehabilitation of
                                   Old Lhasa City
                                   area.
                                  (2) Primary
                                   Education
                                   (Nakchu).
                                  (3) Micro-
                                   enterprise
                                   development
                                   (Dingjie County).
                                  (4) Handicraft
                                   Training (Lhoka
                                   Prefecture).
------------------------------------------------------------------------

                Prepared Statement of Dolkun Kamberi\1\

    Thank you for inviting me here to discuss Uyghurs and Uyghur 
identity. I have divided my presentation into nine topics: an 
introduction, Uyghur people, the linguistic identity of Uyghurs, the 
cultural identity of Uyghurs, the artistic identity of Uyghurs, the 
musical identity of Uyghurs, the historical Identity of Uyghurs, the 
regional Identity of Uyghurs, and a conclusion. It is very difficult 
for me to draw a complete picture of the subject in 10 minutes, but I 
will do my best to summarize. The full text also will available soon on 
the Internet and in print.
---------------------------------------------------------------------------
    \1\ Dolkun Kamberi, director of Radio Free Asia's Uyghur service, 
earned his M. Phil. and Ph. D. degrees from Columbia University and 
completed post-doctoral work at the University of Pennsylvania. His 
specialty has been Silk-Road archaeology and civilization. His career 
has included work as a university professor, museum curator, and field 
archaeologist. He has been published extensively in various languages 
on the Silk-Road culture, history, religions, languages, arts and 
archaeology. Prior to joining RFA, Dr. Kamberi was a scientific 
consultant for the Natural History Museum of Los Angeles County, and a 
visiting professor at the University of Pennsylvania. He has taught the 
courses: ``History & Archaeology along the Ancient Silk Road,'' 
``History and Cultural of Central Asian Empires,'' ``Medieval Turkic 
Languages and Literature,'' and ``Modern Uyghur and Uzbek Languages.''
---------------------------------------------------------------------------
                                summary
    Today the land of the Uyghurs consists of the Tarim, Junghar and 
Turpan basins, located in the center of Asia. The land has gained great 
importance since early times because of its favorable geographic 
location on the ancient trade routes between the East and the West, 
connecting Greco-Roman civilization with Indian Buddhist culture and 
Central and East Asian traditions. Burgeoning trade and cultural 
exchanges gave Uyghur-land a cosmopolitan character marked by 
linguistic, racial and religious tolerance. Uyghur culture and art has 
developed not only on the basis of inheritance and preservation of 
traditional culture, but also through cultural exchanges with others in 
the East and West.
    The name ``Uyghur-land'' denotes a geographical location rather 
than a geopolitical entity. It is located in the eastern part of 
Central Asia. Uyghur-land comprises about one sixth of China's 
territory; it is now the biggest Autonomous Region of China. The Uyghur 
region includes a great portion of Central Asia, from the northeast to 
the southwest; it borders Mongolia, Russia, Kazakhstan, Kyrgyzstan, 
Tajikistan, Afghanistan, Pakistan, Tibet, and India. Uyghur-land is not 
only located in a strategic position on a vital communication line in 
Central Asia-among three large imperial states China, India, and 
Russia-it also has a unique geographic environment, rich natural 
resources and special climate. Its arid climate has helped preserve 
ancient tombs, mummies, petroglyphs and city sites, Buddhist caves, 
innumerable cultural relics, underground antiquities, and treasures. 
There are 24 different manuscripts using 17 ancient languages, writings 
which were unearthed along with the Tarim and Turpan Basin oasis 
cities, well known to scholars. In different periods people called it 
``The Western Region'' in Chinese sources, ``Uyghuristan,'' ``East 
Turkistan,'' ``Chinese Turkistan,'' or ``Chinese Central Asia'' in the 
West. ``Uyghur Ali,'' found in a medieval Uyghur manuscript, means 
``The Country of the Uyghur.'' In 1884, the Qing Dynasty Government of 
China started calling ``Xinjiang,'' which means ``new territory.'' 
After 1955 the name ``Xinjiang Uyghur Autonomous Region'' was given to 
it by the government of China.
    The basic meaning of the name Uyghur is ``unite,'' but it may also 
be translated as ``union,'' ``coalition,'' or ``federation.'' The name 
appeared first in records of the Orkhun Kok Turk inscriptions and in 
early Uyghur. Later forms of the name can be found in medieval Uyghur, 
Manichaean, and Sogdian scripts, and the Arabic script of the Uyghur 
Qarakhanid and Chaghatay period. Apart from these Central Asian forms, 
the name can be found in different periods and diverse texts in 
Chinese, appearing in more than 100 translated forms.
    The Uyghurs and their forefathers are an ancient group of people 
who have inhabited Central Asia since the first millennium B.C. Their 
ancestors can be traced in Chinese historical sources to the ``Die,'' 
``Chi Die,'' ``XiongNu,'' ``Ding Ling,'' and ``Gao Che,'' who lived in 
the north of the Heavenly Mountain (Tangri Tagh), and along the Selenga 
and Orkhun rivers. That territory later became known as the Uyghur 
Empire. The Uyghurs have left historical traces along the ancient Silk 
Road, and also in Chinese historiography.
    The Uyghurs, earlier than other peoples in Central Asia, started to 
settle and build cities. Certain kinds of evidence from both 
archaeological excavations and historical records show that Uyghurs 
lived a settled urban life, and adopted Buddhist and Manichaean 
culture. Facts from Uyghur manuscripts indicate religious and cultural 
interaction of medieval Uyghurs with other peoples of neighboring 
countries. An important part of Uyghur literature is devoted to the 
translation of Buddhist works from non-Turkic languages. That is one 
reason why so many borrowed words from different languages appear in 
medieval Uyghur language.
    About early Uyghur culture and its history, Kingdom Professor Denis 
Sinor wrote: ``The kingdom of Khocho [Idiqut Uyghur Kingdom], ruled by 
the Turkic Uyghurs, was multiracial, multilingual and [it] permitted 
the peaceful coexistence of many religions. It enjoyed a living 
standard unparalleled in medieval Central Eurasia. .  .  . Among the 
non-Muslim Turkic peoples, none has reached the degree of civilization 
attained by the Uyghurs, and they developed a culture in many respects 
more sophisticated than that of most of Muslim Turks. In the visual 
arts, they continued a tradition, non-Turkic in origin, of which they 
maintained very high standards. The script they used gained widespread 
acceptance both to the east and the west. The Uyghurs undoubtedly wrote 
one of the brighter chapters of Central Eurasian history.''
    German archaeologist A.Von Le Coq removed many wall paintings, 
which were shipped in several hundred cases to Berlin. British 
archaeologist Aurel Stein, who visited Bezeklik at the end of 1914, 
indicated that, in terms of richness and artistry, no other finds from 
similar sites in the Turpan Basin could match those of Bezeklik, which 
parallel the rich ancient paintings of the Dunhuang Thousand Buddha 
Caves. Professor Albert Grunwedel (1856-1935) writes in a letter dated 
April 2, 1906: ``For years, I have been endeavoring to find a credible 
thesis for the development of Buddhist art, and primarily to trace the 
ancient route by which the art of imperial Rome, etc., reached the Far 
East. What I have seen here goes beyond my wildest dream. If only I had 
hands enough to copy it all, [for] here in the Kizil are about 300 
caves, all containing frescoes, some of them very old and fine.''
    Historically the Turkic people have commonly used the Uyghur 
literary language. The ancient Uyghur language, which was used in the 
8th century during the Uyghur Khanate, is the same as the language of 
Orkhun-Yenisay inscription, which is called ancient Turki. As we know, 
until the 14th century, the ancient Uyghur literary language was 
commonly in use among the Turki peoples. Shamsidin Sami the author of 
Qamusul'Alam, wrote: ``Uyghur being most advanced in the cultural 
development, their language was common literary language among the 
Turki peoples. Since the period when Chaghatay Khan was in power, the 
Uyghur language, which was called Chaghatay Tili, has been famous.''
    Based on history, literature, religion, content, and the scripts of 
Uyghur linguistic materials, I have classified the Uyghur language into 
five different periods:

    (1) Pre-historical Uyghur language, before the 6th CE. No written 
material in Uyghur has been found so far, but the language came to us 
through Uyghur oral literature, idioms, idiomatic phrases, folk 
stories, folk songs, folk literature, and ancient mythology and legends 
in other language records.
    (2) Ancient Uyghur Language, 6th Century to 10th Century CE. Mostly 
pre-Islamic literatures, which were influenced by non-Altaic language.
    (3) Medieval Uyghur language, 10th-15th Century CE. Mostly Islamic 
literature influenced by Arabic and Persian languages.
    (4) Contemporary Uyghur Language, 16th-19th Century CE. Elishir 
Nawayi's works represent this era.
    (5) Modern Uyghur language, late 19th Century-present.

    The modern Uyghur language belongs to the Ural-Altaic language 
family, Turkic language group of the eastern branch. Among the major 
six Turkic languages, the Turkish and Azari languages are very close, 
Kazakh and Kyrgyz languages are closely related, and Uyghur and Uzbek 
languages can communicate easily on simple subjects. The modern Uyghur 
language has two major dialects: southern and northern.
    According to the Chinese 2000 official census, the population of 
Uyghur native speakers is near 9 million. But independent sources 
claims Uyghur population is about 16 million. In the past 10 years, the 
Han Chinese population in the region increased almost 32 percent. In 
1949, Uyghurs accounted for more than 90 percent of the population 
while the Chinese accounted for only 5 percent of the roughly five 
million people in Uyghur-land. The Chinese population had increased 500 
percent by the 2000.
    The vast majority lives in the Uyghur Autonomous Region under 
Chinese rule. There are large Uyghur-speaking communities in the 
Central Asian Republics, Turkey, and smaller communities live in 
Russia, Mongolia, Pakistan, Afghanistan, and also in the West. 
According to the Uyghur Autonomous Regional law, the standard Uyghur 
language serves as the official language of the Uyghur Autonomous 
government since 1955. But while more than 10 million Uyghurs live 
throughout a vast region of Central Eurasia, the Uyghur language has 
been greatly neglected by the international community. There are no 
generally accessible Western publications or education in the Uyghur 
languages and literature, except for a few early publications in 
Russian, and some German and Swedish. Uyghurs have used more than eight 
different writing systems from early medieval times to present. Now 
they are using the Arabic script-based, Persian-modified modern Uyghur 
writing system.
    Among the states of Central Asia, the stateless Uyghurs 
historically formed the leading group of the region for centuries. They 
possessed a rich literature, strong economy and military, the ability 
to conduct State affairs, and to help others solve conflicts. They 
showed generosity and offered their hospitality. Uyghurs and their 
ancestors built their reign under the rule of the Hun (2nd BCE to 2nd 
CE), the Jurjan (3rd CE to 5th CE), and the Turk Empires (522 CE to 744 
CE). Uyghurs also established their own states throughout history. 
Their states include the Uyghur Ali (744 CE to 840 CE), the Idiqut 
Uyghur (840 CE to 1250 CE), the Uyghur Qarakhan (10th CE to 13th CE), 
the Uyghur Chaghatay (13th to 16th CE), the Yarkant Uyghur Khanate 
(1514-1678), the Qumul and Turpan Uyghur Baks (from the end of 17th CE 
to beginning of 19th CE), and the Yakup Bak (1820-1877), which lasted 
until Qing's invasion. Uyghurs reclaimed Uyghur-land as the Republic of 
Eastern Turkistan in 1933 and the Eastern Turkestan Republic from 1944-
49.
    The president of Eastern Turkestan, Alihan Ture, was called back by 
Stalin in 1946 to Russia and lived in Tashkent until 1976. His 
successor, Ahmatjan Qasim (1914-1949), Eastern Turkestan army chief 
general Isaqbeg (1902-1949), deputy army chief general Dalilkan 
Sugurbayev (1902-1949), a member of Eastern Turkestan Central 
Government Abdukerim Abbasov (1921-1949) died in a mysterious plane 
crash on their way to Beijing on 22 Aug. 1949. (Abduruf Mahsum, the 
general secretary of the State of the Eastern Turkestan Republic is 
still alive in Almaty Kazakhistan). From 1946-1949, Russia and China 
engaged in many governmental structure reforms in the Uyghur-land. 
During the reforms, both Russian and Chinese government representative 
promised again and again to the Uyghurs that the presence of the 
Chinese army in Uyghur-land would promote democratization, free 
elections, and high autonomy, to help build the new Xinjiang, and 
achieve independence for Uyghurs in the future-as Zhang Zhi Zhong 
promised at the summit of Chinese Nationalists, Communists, and Uyghurs 
in Urumchi in 1946.
    After 1950, several times ``the communist revolutionary moment'' in 
China has touched almost every aspect of traditional culture, 
especially crucial for Uyghur-land during the Cultural Revolution. The 
revolutionists found that every aspect of culture in Uyghur-land was 
different from that of China. That included languages, writing systems, 
the arts, literature, ideas, values, attitudes, history, religion, 
customs, music, dance, songs, the way that people thought, even the 
features of people-their clothes, house decoration, and food.
    The Government twice changed the writing system of the Uyghurs, 
Kazaks, and Kirghiz, and punished all levels of educated intellectuals 
four times in 50 years for political reasons. Furthermore, the 
politicians reorganized and merged the Eastern Turkistan troops into 
the Chinese Army units, and made the army units of former Eastern 
Turkistan-as well as their generals and high-ranking commanders-
disappear after 1966.
    Besides giving serious thought to Uyghur identity, another goal of 
this presentation is to attract the attention of United States and 
international community to Uyghur issues. Therefore, this presentation 
also aims to present the evidence needed to understand Uyghur identity 
better. The archaeological excavations and historical records show that 
Uyghur-land is the most important repository of Uyghurs and Central 
Asian treasures.
    Indeed, there are only a few places in the world that can claim the 
religious, linguistic, cultural, and artistic diversity at one period 
that Uyghur-land can. Shamanism, Buddhism, Manichaeaism, Nestorianism, 
and Islam flourished in the Uyghur-land side by side and one after 
another along with the tradition of early Uyghur original ethnic cults. 
Uyghurs are indigenous people of Central Asia; they have developed a 
unique culture and arts that made significant contributions to the 
Asian culture. The Uyghur intellectuals have struggled to renew and 
keep their cultural identity since 10th Century CE.
    After September 11, China increased Chinese military along the 
Central Asian borders, and they sent more armed police and non-
uniformed security forces into the big cities of Uyghur-land to control 
Uyghur people, intensifying already high tensions. Recently, Chinese 
authorities have stepped up its ``Strike Hard'' campaign against Uyghur 
dissidents. According to Amnesty International's 1999 and 2002 reports 
on human rights abuses, the Uyghur region is only region of China where 
political and religious prisoners have been executed in recent years. 
Chinese Government has also put tremendous pressure on Central Asian 
countries such as Kazakhstan, Kyrgyzstan, and Uzbekistan, not to 
support Uyghur political activists or harbor Uyghur dissidents. They 
are pressuring Central Asian governments and Pakistan to return Uyghur 
dissidents to China with accusation of terrorism.
    The Chinese government simply labeled Uyghurs as terrorists and 
tried to condemn two contemporary Eastern Turkestan republics, 
established during the 30s and the 40s, as origins of terrorists. As we 
know the terms ``terrorism'' and ``terrorist'' they are non-existent in 
Uyghur general knowledge and in their language throughout history. 
Modern Uyghur is using words directly borrowed from English terminology 
for that notion.
    There is recent disturbing news in Urumchi. Xinjiang University 
plans to teach major subjects to Uyghur students in Chinese beginning 1 
September 2002 and it has burned Uyghur books in Kashgar. Not one 
Uyghur dared to comment publicly from the Uyghur-land regarding the 
news, but there is a very strong reaction from the exiled Uyghur 
community. Eyewitnesses saw the destruction of thousands of books 
during May in Kashgar. The government-owned Kashgar Uyghur Publishing 
House burned 128 copies of A Brief History of the Huns, and Ancient 
Uyghur Literature, which officials view as fomenting separatism. It 
also burned 32,320 copies of Ancient Uyghur Craftsmanship, also 
regarded as promoting separatist religious beliefs, according to 
sources in Kashgar. ``Burning these Uyghur books is like burning the 
Uyghur people. Even under the Chinese constitution, these Uyghur books 
should protected as part of Uyghur cultural heritage,'' said one local 
Uyghur. According to the official Kashgar Daily, the Kashgar Uyghur 
Publishing House has also censored more than 330 books and stopped 
publication of other volumes. Another Uyghur intellectual sadly 
indicated: ``Burning those Uyghur books recalls images of Hitler and 
Chairman Mao's campaign during the Chinese Cultural Revolution.''
    After carefully examining different aspects of Uyghur identity, I 
deeply believe that neglecting Uyghur civilization is neglecting 
Central Asian civilization; neglecting Central Asian civilization is 
neglecting Asian civilization; and neglecting Asian civilization is 
neglecting world civilization. In other words, destroying Uyghur 
cultural heritage is destroying the world's cultural heritage.
    It is time for the U.S. Government to pay more attention to the 
seriousness of the political, economical, cultural, and religious 
discrimination and abuses facing the Uyghurs, and the Tibetans. Wide 
spread abuses of human rights, unequal treatment, unequal wealth 
distribution, economical, ideological, cultural exploitation, and 
joblessness are affecting almost every family of near 10 million 
Uyghurs in China. Saving the Uyghur culture is like saving our own 
culture.
    I ask of you, the U.S. Government, to establish a coordinator in 
the U.S. State Department on Uyghur issues to help consult the U.S. 
Government on policymaking decisions regarding Central Asia and China. 
The Administration should consider opening an U.S. consulate in 
Urumchi. The State Department should establish an immigration quota to 
help Uyghur refugees hiding out in Central Asia and surrounding 
countries. And it should also establish an academic research 
institution focusing on Silk Road civilization, and create more 
educational opportunities in the United States for Uyghur youths. The 
U.S. Government should coordinate with the United Nation and NGOs to 
promote human rights and religious freedom for Uyghurs. The United 
States should also put stronger pressure on China to release Uyghur 
businesswoman Rabiya Kadeer. And periodically the United States should 
send congressional delegations including Uyghur dissidents to Uyghur-
land to examine the State of human rights and religious freedom in the 
Uyghur Autonomous Region. Furthermore, the United States should provide 
funds for the Uyghur Non-Governmental Democratic institution.
    Thank you for having me here today, and for your attention.
                                 ______
                                 

                 Prepared Statement of Justin Rudelson

                             june 10, 2002
    China claims Xinjiang to be the front line of its own war against 
international terrorism and maintains that Xinjiang harbors Uyghur 
Muslim extremists intent on overthrowing Chinese rule with the backing 
of Osama bin Laden's terrorist network. While it is true that that 
China is invoking bin Laden's name to justify crackdowns on Islam in 
Xinjiang and on the Uyghurs, Beijing's own ``war on terrorism,'' its 
crackdown in Xinjiang has been going on with a vengeance since at least 
1996, more than 5 years before September 11. This is because Xinjiang 
has a greater potential than all other regions of China to cause 
upheaval. In Beijing's view, instability in Xinjiang could bring 
instability to Tibet, Hong Kong, and Taiwan.
    Beijing uses ``affirmative action'' type economic rewards mixed 
with political and military crackdowns, believing in a very Western 
way, that economic development can undermine Uyghur calls for 
independence and solve Xinjiang's problems. As part of China's Manifest 
Destiny, Beijing believes it must fulfill its responsibility to 
modernize Xinjiang. And economically, Xinjiang has thrived. In 1991, 
Central Asian independence had little impact on the Uyghurs because 
most Uyghurs recognized then and now that Xinjiang is a lot better off 
economically than the countries of Central Asia.
    Jiang Zemin's regime has arguably delivered China's most stable 
decade in the last 150 years. However, the experimental nature of 
Chinese development in Xinjiang opens it to risk. For example, as part 
of its development plans, Beijing is connecting Xinjiang to Central 
Asia's new trade, rail and road links with Kazakhstan and Tajikistan. 
But these very openings are splitting the Uyghur Nation apart and 
exposing Xinjiang directly to Islamic militants and the drug trade 
emanating from these countries and beyond. In 1999, China completed the 
South Xinjiang railway, connecting Urumchi to Kashgar to assist its 
economic boom and settling large numbers of Han immigrants in this 
traditional Uyghur area. Militant Uyghurs are certain to accelerate 
violent action against these Hans and the trains that carry them.
    Beijing's labeling the Uyghurs as terrorists and separatists with 
connections to the Taliban, al Qaeda and bin Laden is a terrifying 
appeal to United States anti-terrorism sympathies. So far, there is 
evidence of only 13 Uyghurs involved with Taliban fighters, and we do 
not know how many of these were from the Uyghur exile community in 
Pakistan. To be fair, China is in a no-win situation. No matter what it 
does to develop Xinjiang, many Uyghurs will only see it as a part of 
colonialist domination. Each discovery of oil in Xinjiang leads to 
Uyghur wealth being stolen. Each new road facilitates Han Chinese 
immigration to the region.
    Uyghur resistance to Beijing takes many forms. Some Uyghurs look 
toward the Central Asian countries and ask why the Uyghurs do not have 
their own state. In the oasis villages, many traditional Uyghurs 
participate in the revival of Islam and Sufism. In the capital Urumchi, 
some Uyghur intellectuals, who are primarily secular and fiercely anti-
Islamic, advocate blowing up all of Xinjiang's mosques because so much 
of the Uyghur wealth is being invested in mosques rather than in 
secular schools. Only a very few Uyghurs have turned to militancy. And 
almost all of these militants are Uyghur secular nationalists, seeking 
independence from China, whose struggle has no connection with Islam.
    In the mid-1990's, Beijing unleashed campaigns against what it 
called ``illegal religious activity'' and ``splittism'' or 
``separatism'' that equated Islam with subversion. The security 
alliance known as the Shanghai Five, now Shanghai Cooperation 
Organization, which began in 1996, gave China extreme latitude to crack 
down on Xinjiang's Uyghurs. Two months after the first Shanghai Five 
meeting, China unleashed a ruthless police crackdown called ``Strike 
Hard'' against Uyghur ``splittism'' that brought on a cycle of anti-
government resistance and harsh reprisals that continue today. Since 
1996, one Uyghur has been executed in Xinjiang an average of every 4 
days. Few Western countries have voiced concern.
    By clamping down on all Islamic practice as fundamentalist or 
potentially militant, China provides no moderate alternative and only 
produces greater militancy among its Muslim populations. For example, 
in 1997, Uyghur students in Ili, the most secular region in all of 
Xinjiang, launched a grass-roots campaign against alcohol. Alcohol 
addiction is destroying the Uyghur people. Uyghur students developed 
the health campaign against alcohol to encourage liquor stores to stop 
their sales and to get Uyghurs to end consumption. The government saw 
the campaign as motivated by fundamentalist Islam and in the ensuing 
clashes between police and students, an estimated 300 Uyghurs were 
killed.
    Besides alcohol, HIV/AIDS has brought the most devastating threat 
to Uyghur survival as a people. The HIV/AIDS epidemic in Xinjiang will 
develop into a significant geopolitical problem that warrants close 
attention from the US. Heroin started coming into Xinjiang in 1994 from 
Burma. Uyghurs initially smoked it but over the past few years began 
injecting it, creating a nightmare AIDS crisis. Within a drastically 
short time, Xinjiang has emerged as China's most seriously affected 
region and the Uyghurs are the most affected of all of China's peoples. 
Most of the Uyghur HIV sufferers become infected from intravenous drug 
use. The data on HIV prevalence among intravenous drug users is grossly 
underreported by as much as 5-10 times, with the rate of infection 
increasing by about 30 per cent annually. Drug use in China, as in the 
US, is a criminal offense. Clean needle exchanges are unheard of. Data 
on drug use is obtained at police-run detoxification centers where drug 
users are detained typically for about 2 months. Most addicts live 
``underground'' to evade police detection.
    In Xinjiang, there are no anti-retroviral drugs available. The 
Uyghurs face an epidemic chain of infection, devastation, and 
disintegration as the number of new HIV cases grows exponentially each 
year. Public health systems are poorly positioned to stem the disease. 
There are no hospitals in Xinjiang prepared to treat patients with 
full-blown AIDS. Testing is prohibitively expensive.
    Although international teams are working in Xinjiang with the 
Xinjiang Red Cross, the programs are limited in scope with lack of 
coordination or sharing of information among the various organizations. 
Such coordination is crucial to prepare for the rising numbers of 
Uyghur patients as they develop full-blown AIDS and as Uyghur 
disaffection and anger mounts as the AIDS toll climbs. Young Uyghurs 
infected with HIV/AIDS will feel desperate, enough perhaps to strike 
out at Han and government targets as suicide bombers.
    To deal with the AIDS nightmare in Xinjiang, China needs to partner 
with international organizations such as NATO, along with international 
health agencies to reduce opium production in Burma and Afghanistan. So 
far, the entire supply of heroin entering Xinjiang is from Burma. Two 
years ago, before the Taliban cracked down on its drug trade, 
Afghanistan produced 75-90 percent of the world's opium supply. The 
interim government of Hamid Karzai in Afghanistan is too weak to 
prevent Afghan peasants from selling opium again. It will be difficult 
for China to keep Afghan heroin from entering the Xinjiang market to 
meet the huge Uyghur demand. When this happens, it will be 
catastrophic.
    The HIV/AIDS epidemic in Xinjiang and throughout the greater 
Central Asian region is perhaps a more pressing concern as a security 
issue than as a humanitarian one, warranting immediate attention from 
the US and its allies. Xinjiang's HIV/AIDS situation alone, put within 
the context of the regional HIV/AIDS epidemic affecting Russia, India, 
Pakistan, Afghanistan, Iran, and the Central Asian nations, starkly 
reveals that China and the entire geopolitical region faces a security 
issue of the gravest proportions. Note that in South Africa, where the 
AIDS trajectory has reached its most extreme extent, the military 
currently has an HIV infection rate of over 90 percent mainly spread by 
contact with prostitutes. It is predicted that the military of all of 
the nations in this region including China's will be profoundly 
weakened within 5-10 years by HIV infection in the same way. The HIV/
AIDS epidemic is certain to dramatically affect Xinjiang and its 
international neighbors, and will radically affect China's national 
security and stability.
    The treatment of opportunistic diseases associated with HIV/AIDS 
such as Tuberculosis and sexually transmitted diseases are sure to wipe 
out most, if all not all, of the economic gains that development will 
bring to Xinjiang and the Central Asian region and will be an 
impossible burden for the health care budgets of the greater Central 
Asian states. Moreover, the under-funded and unreformed health systems 
in the region are too weak to react to patients with full-blown AIDS, a 
situation that could provoke rioting and militant action against 
governments seen to be heartlessly unresponsive.
    In order to assist in the fight against HIV/ AIDS in Xinjiang, and 
to develop the region economically, two issues that are vital to 
stemming militancy and terrorism, China should be invited as an 
observer to G-8 meetings and eventually be invited to join the G-9. A 
Western embrace of China is the only way to develop a long-term and 
consistent overall strategy to prevent the further alienation of the 
Turkic Muslim people of the greater Central Asian region including 
Xinjiang. China's current approach to the global war on terrorism, 
particularly its focus on anti-terrorism in Xinjiang among the Uyghurs, 
leads Beijing to appear to be cynically using the September 11 tragedy 
to repress its discontented Uyghurs. To change this perception, China 
needs to become a partner with the US and Russia in peacemaking, 
regional development, and the struggle against the HIV/AIDS epidemic, 
not just in anti-terrorism.

                                   - 

</pre></body></html>
